<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-680]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                        THURSDAY, MARCH 10, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Cochran, Alexander, Cassidy, 
Capito, Lankford, Murray, Reed, Merkley, Schatz, and Baldwin.

                        DEPARTMENT OF EDUCATION

                        Office of the Secretary

STATEMENT OF HON. JOHN B. KING, JR., ACTING SECRETARY
ACCOMPANIED BY THOMAS P. SKELLY, DIRECTOR, BUDGET SERVICE


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, Education, and Related Agencies will 
come to order.
    Mr. Secretary, we are glad you are here this morning and 
appearing before the committee. You and I just visited and 
discovered that we both started our post-college careers as 
social studies teachers. So it is great to have you here and 
understand that you embody so much about the education system. 
I think both your parents were teachers. You were a teacher. 
And I am glad to have you here as Acting Secretary. And Senator 
Alexander is doing everything he can to remove the ``acting'' 
designation, and the Senate will be voting on that I think 
before too long.
    This is your first time in this position before the 
subcommittee, and we look forward to hearing your testimony.
    Also, I think I would be remiss if I did not mention that 
Tom Skelly--this is his last appearance before the 
subcommittee. He is retiring this month from the Department of 
Education after 41 years, including 19 years as the Budget 
Director. The committee, Tom, thanks you for your years of 
service and particularly for the technical expertise and 
responsiveness that you have provided to this committee over 
that 19 years of doing the job you are doing now. So we are 
glad you are here.
    The Department, of course, funds many critical activities 
to help students get into college and through college and 
prepares the next generation of workers for the jobs and 
careers of the future.
    The fiscal year 2017 discretionary budget request for the 
Department has an increase of 2 percent. I think this is 
particularly concerning in an overall discretionary budget that 
increases by $40 million. The Department's request increases by 
$1.3 billion. A lot of that is because there is some reducing 
of discretionary funding in other areas that are within the cap 
of this committee, like a billion dollar increase in NIH 
(National Institutes for Health) research. I do not think that 
will happen, but we had a chance to talk about it with 
Secretary Burwell the other day.
    Of course, we have lots of shared priorities. I hope we can 
work together on those priorities.
    I am pleased to see your increase in charter schools. I 
look forward to what you may have to say about that later this 
morning, knowing that you have some experience there as well.
    The significant funding increases for Title I and special 
education were maintained.
    And finally, a Pell Grant increase from $5,815 to $5,935. I 
am sure we will talk about Pell Grants some, including the 
potential for year-round Pell.
    I was disappointed, given the increase in the Department's 
request, that actually, once again, the budget suggests cutting 
funds for Impact Aid payments to schools that have significant 
federally owned land in the school district which, of course, 
then comes off the tax rolls.
    I also continue to question how the Department is managing 
the servicing of Federal student loans. Specifically, I am 
concerned how the Department allocates new loans to student 
loan servicers and appears not to take into account the metrics 
that the Department has put together regarding the success rate 
that some servicers have over others.
    I am concerned about the Department's increasingly heavy 
hand in regulating institutions of higher education. We have 
built a great higher education system in the country, in large 
part, because the Federal Government, while it has been very 
supportive of higher education, has until recently never 
purported to want to control higher education.
    Last year, we helped convince the Department to abandon its 
misguided college rating system. I was glad to see the 
Department move away from that. However, the Department still 
continues to move forward with several proposals that would 
exert unprecedented control over higher education.
    The gainful employment regulation has the Department 
unilaterally establishing significant policy that will impact 
hundreds of thousands of students. This regulation uses one 
single metric to measure the quality of higher education 
programs and will shut down good programs with the bad. You 
know, we should not judge our education system based purely or 
even largely on how much a student earns. It is almost 
antithetical to the idea of higher education. The size of the 
paycheck does not reflect the quality of education or the 
contribution to community. Certainly if that were the case, you 
and I would not have initially been social studies teachers.
    Getting these policies right is difficult. We want to work 
with you on these policies. I respect the skills and background 
you bring to the job, and I think we are all eager to work hard 
to find the things we can do together and talk through the 
things that we do not agree on. And that is what Senator Murray 
and I try to do as well.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. Thank you, Acting Secretary King, for appearing 
before the Subcommittee today to discuss the Department of Education's 
fiscal year 2017 budget request. There are few people who embody what 
our education system can mean to children and young adults better than 
you. This is your first time before the Subcommittee and we look 
forward to hearing your testimony.
    I would be remiss if I didn't mention this is Mr. Tom Skelly's last 
time appearing before this Subcommittee. He is retiring this month from 
the Department of Education after 41 years, including the last 19 as 
budget director. The Committee thanks you for your years of service and 
for the technical expertise you have provided this Subcommittee in 
particular.
    The Department of Education funds many critical activities to help 
students get into and through college, and prepare the next generation 
of workers for the jobs and careers of the future.
    The fiscal year 2017 discretionary budget request for the 
Department of Education is $69.4 billion, a $1.3 billion, or 2 percent 
increase above fiscal year 2016.
    My overreaching concern with this request is that the increase of 
$1.3 billion for the Department of Education dwarfs the total increase 
for all of non-defense discretionary spending--which is $40 million. 
Further, this increase is only made possible by budget gimmicks within 
the Department of Health and Human Services budget request, including 
cutting discretionary funding for the National Institutes of Health by 
$1 billion.
    We have many shared priorities reflected in the budget request. It 
is my hope we can work together to identify priorities and find common 
ground while adhering to budget caps.
    I was pleased to see an increase for charter schools, which have 
been a critical component to ensuring children have access to high 
quality elementary and secondary schools regardless of where they live. 
Last year's significant funding increases for Title I and special 
education were maintained. Finally, the maximum Pell grant will 
increase from $5,815 this coming school-year to an estimated $5,935 
next year.
    However, I am disappointed, given the large increase in the 
Department's request that the budget once again cuts funding for the 
Impact Aid Payments for Federal Property program. That program, like 
all of Impact Aid, represents a core aspect of the Federal Government's 
commitment to the parts of the country impacted by the presence of 
federally-owned land. The Subcommittee has rejected this proposal 
repeatedly in the past and I am certain we will again.
    I also continue to question how the Department is managing the 
servicing of Federal student loans. Specifically I'm concerned with how 
the Department allocates new loans to student loan servicers. We should 
do more to ensure student borrowers have access to the best service 
possible. I hope we can work together on this issue going forward.
    Finally, I remain concerned about the Department's consistently 
heavy hand in regulating institutions of higher education. We have 
built a great higher education system in this country, in large part, 
because the Federal Government has supported it, without trying to 
control it.
    Last year we helped convince the Department to abandon its 
misguided college ratings system. This was the right decision. However, 
the Department still continues to move forward with several proposals 
that exert unprecedented control over higher education.
    For example, with the Gainful Employment regulation, the Department 
is unilaterally
    establishing significant policy that will impact hundreds of 
thousands of students. This regulation is a blunt tool that uses one 
single metric to measure the quality of a higher education program, and 
will shut down good programs with the bad. We shouldn't judge our 
education system based purely on how much a student earns when they 
graduate. That's almost antithetical to higher education.
    Getting these policies right is difficult. That is why they should 
be addressed through the legislative process, and not by the Department 
shoehorning significant changes into longstanding law that never meant 
to address this specific issue.
    Dr. King, while there are clearly issues on which we disagree, I 
know we both share a strong desire to fund programs that benefit all 
students and support increased educational opportunities in every 
State. I look forward to working with you during your first full year 
at the helm at the Department.
    Thank you.
    Senator Blunt. I am pleased to recognize Senator Murray for 
her opening statement.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Thank you very much, Mr. Chairman.
    Acting Secretary King, thank you for being here today and 
for your work to improve our Nation's education system.
    Education is such an important part of building our economy 
that grows from the middle out, not from the top down. And that 
is what makes investments in education some of the most 
important we can make. So I look forward to your testimony and 
the discussion about the Department's funding needs for fiscal 
year 2017.
    Mr. Skelly, welcome to you as well. I too add my 
congratulations to you and best wishes, and thank you for all 
of your service to all of us for so many years.
    The Department's budget proposal for programs within this 
subcommittee's jurisdiction totals almost $69.4 billion. That 
is an increase of $1.3 billion over last year. This increase is 
really important considering the need to support effective 
implementation of the bipartisan Every Student Succeeds Act and 
to make college more affordable and reduce the crushing burden 
of student debt that is weighing on so many of our families 
today. This is a critical moment for K-12 education as schools, 
districts, and States now transition from the broken No Child 
Left Behind law to our bipartisan Every Student Succeeds Act 
that the President signed into law late last year. I was very 
proud to work with Senator Alexander, who is here as well, to 
find a bipartisan path to make sure all of our students have 
access to a quality education.
    However, our work is not done. The Department needs to use 
its full authority under the Every Student Succeeds Act to now 
hold States and schools accountable, reduce the reliance on 
redundant and unnecessary testing, and expand access to high 
quality preschool. And Congress needs to provide adequate 
funding to support the new law, starting with adequate 
investment in Title I grants, the foundation of our education 
law.
    Half of our Nation's schools and eight out of ten school 
districts rely on Title I investments. I was very glad that 
last year, working with Chairman Blunt, we were able to 
increase Title I funding by $500 million in the 2016 omnibus. 
But that increase only brought Title I funding back to its 
previous level before the across-the-board sequestration cuts 
of 2013. So, Acting Secretary King, I am pleased to see your 
budget proposes a further increase of $450 million in Title I.
    However, I am concerned about the budget's proposal to 
allocate $175 million of this amount outside of the authorized 
Title I formulas. Inadequate funding in Title I could mean 
thousands of school districts across the country would receive 
less funding than they did in the prior year. I believe schools 
can only truly help every student succeed when they have 
adequate funding.
    There are other areas I am interested in hearing more about 
today, including investments to help students who too often 
fall through the cracks. More than 35,000 public school 
students were homeless last school year in my home State of 
Washington. That is up almost 63 percent since the 2009-2010 
school year. I am pleased this budget proposes an increase of 
$15 million to help address the education needs of homeless 
students, bringing the total to $85 million.
    I am also pleased the budget includes $190 million for the 
comprehensive literacy development program that I created in 
the Every Student Succeeds Act.
    From higher education, I hear from so many students and 
families who are struggling with the rising cost of college and 
student debt. So I am really pleased the budget will increase 
investments in the Pell Grant program, and it would reinstate 
the year-round Pell Grants and establish a $300 Pell bonus for 
students who are on track to complete their degree program.
    It is important to remember the 2-year budget agreement 
rolled back the automatic cuts and allowed us to restore some 
key investments, but it did not go as far as many of us had 
hoped. That means, as it often does, that difficult choices 
will be unavoidable in 2017. They will just be tougher than 
last year.
    Even so, I believe that this subcommittee can find a way to 
write a bipartisan bill once again, but doing so depends on 
this subcommittee getting an allocation that will allow us to 
make the needed investments in education and medical research 
and drug treatments, support for working families, and so much 
more.
    I know that Chairman Blunt would like to work on this bill 
in a bipartisan manner as well, as we have in the past, and 
build on the progress we have made. So I look forward to 
working with you, Acting Secretary King, and all of our 
colleagues here today in the coming weeks and months. So thank 
you very much.
    And I will turn it back over, Mr. Chairman.
    Senator Blunt. Thank you, Senator Murray.
    Dr. King, we are ready for your testimony. I am glad you 
are here.

              SUMMARY STATEMENT OF HON. JOHN B. KING, JR.

    Dr. King. Thank you very much.
    Chairman Blunt, Ranking Member Murray, and members of the 
committee, thank you for inviting me to discuss the 
Department's 2017 budget, the first under the new Every Student 
Succeeds Act. I look forward to building on our bipartisan 
collaboration as we implement ESSA (Every Student Succeeds Act) 
and working to address our biggest challenges in education.

                           BUDGET PRINCIPLES

    Increasing equity and excellence in public education has 
been my life's work. Before joining the Department, I led the 
New York State Department of Education and served with Uncommon 
Schools, a network of high-achieving charter schools. I began 
my career as a high school social studies teacher and co-
founded one of the highest performing urban middle schools in 
Massachusetts. I am also the proud parent of two public school 
students. These experiences inform and inspire every decision I 
make at the Department.
    This year, the Agency is focused on three principles, which 
reflect the themes in our budget. First, ensuring every child 
has the opportunity to access a quality education. Second, 
supporting our Nation's teachers and elevating the teaching 
profession. And third, improving access, affordability, and 
completion in higher education. Allow me to take each of these 
in turn.
    The budget invests in programs to increase educational 
equity, so all children, regardless of background, native 
language, ZIP code, or disability, can achieve their full 
potential. For example, the budget ensures our youngest 
learners get a strong start in school through President Obama's 
landmark Preschool for All initiative. In addition, the HHS 
(Department of Health and Human Services) budget increases 
funding for the jointly administered Preschool Development 
Grants program.
    To help close opportunity gaps, the request provides $15.4 
billion for Title I grants, the cornerstone of the Federal 
effort to ensure all students, especially our most vulnerable, 
graduate from high school prepared for college and careers.
    The Computer Science for All grant proposals in the budget 
would advance comprehensive State and local efforts to offer 
rigorous coursework to all students with a focus on those who 
have been under-represented in the STEM (science, technology, 
engineering, and math) fields.
    The budget would also increase support for community 
efforts to improve the educational and life outcomes for 
children and youth by increasing funding for the Promise 
Neighborhoods program, and through the Stronger Together 
program, we would help local leaders create more high-achieving 
socioeconomically diverse classrooms and schools.
    Recognizing that educators are nation-builders and vital to 
our children's success, the budget invests to recruit, develop, 
support, and retain outstanding teachers and school leaders. 
The Teacher and Principal Pathways program would strengthen our 
pipeline of effective educators, while Teach to Lead grants 
would capitalize on teachers' leadership, helping them realize 
their ideas for education improvement. And to help educators 
advance through every phase of their careers, the budget 
supports innovations in human capital management systems for 
districts and schools in through the Teacher and School Leader 
Incentive Fund.
    We also are proposing RESPECT: Best Job in the World to 
rethink the best ways to structure teaching in high-need 
schools to attract and retain effective teachers where we need 
them most.

                MAKING HIGHER EDUCATION MORE AFFORDABLE

    The programs in our 2017 budget also would make higher 
education more affordable and help additional students earn 
degrees. America's College Promise would make 2 years of 
community college free for responsible students, an idea that 
is proving its potential in communities from Tennessee to Long 
Beach, California.
    This budget would also drive innovations in Pell Grants by 
supporting students who take classes year-round, rewarding 
those who take at least 15 credits per semester and rewarding 
institutions with high enrollment and completion rates for Pell 
Grant recipients.
    While this budget is focused on helping to meet challenges 
in education, I also want to acknowledge our country's 
remarkable gains. High school graduation rates are at an all-
time high and dropout rates are decreasing. We have seen the 
largest and most diverse class completing higher education in 
our history. And the numbers of African American and Latino 
students enrolling in college are up by more than a million 
since 2008.
    This budget leverages local leadership, the source of 
strength for our Nation's education system, to help more 
students thrive from preschool through college. We are 
committed to using and developing evidence and data to maximize 
results for students and taxpayers. To accomplish this, we 
propose significant investments in evidence-based and 
innovative initiatives, including the Education Innovation and 
Research program, First in the World, and an HBCU and MSI 
Completion Innovation Fund.
    I have met countless students who know that thanks to the 
educators in their lives, their destiny will not be determined 
by where or the circumstances into which they were born. The 
Department's 2017 budget would support local and State-led 
efforts to ensure in every community and in every school, 
students know that their education can provide them with the 
knowledge and skills to achieve their greatest aspirations.
    I look forward to discussing these ideas with you in more 
detail and would be glad to answer your questions. Thank you.
    [The statement follows:]
              Prepared Statement of Hon. John B. King, Jr.
    Chairman Blunt, Ranking Member Murray, and Members of the 
Subcommittee: I am pleased to testify today on behalf of the 
President's 2017 budget request for the Department of Education. The 
overall discretionary request for the Department is $69.4 billion, an 
increase of $1.3 billion, or 2 percent, over 2016. The 2017 Budget 
builds on our progress and reflects key developments over the past 
year, most significantly, enactment of the bipartisan Every Student 
Succeeds Act (ESSA).
                              introduction
    As this is my first appearance before this Subcommittee, please 
allow me to introduce myself. I have dedicated my life to education 
largely because education saved my life. Both of my parents were career 
New York City public school educators. To this day, they inspire me to 
serve, but I lost them both by the time I was 12. As I have said 
before, my life could have easily taken a wrong turn at that point. 
Instead, New York City public school teachers gave me hope and purpose. 
They set me on the path to where I am today.
    Prior to joining the Department in 2015, and becoming Acting 
Secretary this year, I served as Commissioner of the New York State 
Department of Education. Before that, I was a Managing Director of 
Uncommon Schools, which today manages public charter schools serving 
low-income students in Boston, Newark, Camden, Brooklyn, Rochester, New 
York City and Troy, New York. I also was a co-founder and principal of 
Roxbury Preparatory Charter School in Boston, which became one of the 
highest-performing urban middle schools in Massachusetts. And, I began 
my career as a high school social studies teacher in San Juan, Puerto 
Rico and Boston, Massachusetts.
                 president obama's 2017 budget request
    This 2017 Budget Request focuses on three major priorities: (1) 
advancing equity and excellence for all students; (2) expanding support 
for teachers and school leaders; and (3) improving access, 
affordability, and student outcomes in postsecondary education. The 
Department also makes a commitment throughout the budget to promoting 
greater use of evidence and data to maximize results for students and 
taxpayers.
               support for the every student succeeds act
    With the enactment of the ESSA in mid-December, the Administration 
worked hard to align the 2017 Budget with the reauthorized ESEA and to 
allocate resources to support the new law's focus on education equity, 
support for teachers, and well-rounded instruction. We are pleased that 
the ESSA embraces many reforms the Administration has long supported, 
including State-defined college- and career-ready standards, 
accountability for the success of all students, innovation in 
education, and expansion of high-quality preschool. The Budget provides 
robust funding for core components of the reauthorized ESEA to advance 
equity and excellence and support great teachers and school leaders.
            advancing equity and excellence for all students
    The first major priority in the 2017 request is to ensure all of 
our young people, and particularly students from low-income families 
and students of color and those in high-poverty schools who are the 
focus of the ESSA, have the chance to learn and achieve. While we have 
made significant progress in increasing overall graduation rates, gaps 
for students from low-income families and students of color continue to 
persist. We must close these gaps, and one way to do so is to increase 
resources for key programs that support students who need the most help 
to meet challenging State academic standards. To help close our current 
resource and opportunity gaps, the 2017 request provides $15.4 billion 
for Title I Grants to Local Educational Agencies (LEAs)--the 
cornerstone of the Federal effort to ensure that all students--
including students from low-income students, students of color, 
students with disabilities, and English Learners--graduate from high 
school prepared for college and careers.
    The request provides $12.8 billion for Individuals with 
Disabilities Education Act (IDEA) Formula Grant Programs, to assist 
States in providing high-quality early intervention services to infants 
ages birth through 3 and their families, and help States cover the 
excess costs of providing special education and related services to 
children with disabilities ages 3 through 21. This includes a combined 
increase of $80 million over 2016 enacted levels for IDEA Preschool 
Grants (Part B, Section 619) and Grants for Infants and Families (Part 
C).
    The President's Budget also supports expanded access to high-
quality preschool for all children from low- and middle-income families 
by providing $1.3 billion in mandatory funding in 2017 and $75 billion 
over 10 years for the President's landmark Preschool for All proposal, 
along with $350 million for the reauthorized Preschool Development 
Grants program, an increase of $100 million over the 2016 level, in the 
Department of Health and Human Services request and jointly 
administered with the Department of Education. We also would 
significantly increase support for State and local efforts to meet the 
educational needs of English Learners in public schools through an $800 
million request for English Language Acquisition formula grants.
    I am proud that our 2017 budget also includes new resources for 
school districts ready to take bold action to address equity gaps in 
their schools and communities. First, we are asking for $120 million to 
fund a new Stronger Together program that would support voluntary 
efforts by one or more school districts, guided by strong community 
input, to increase socioeconomic diversity in their schools. Research 
shows that States with more socioeconomic segregation in schools tend 
to have larger achievement gaps between low- and higher-income 
students, and socioeconomically diverse schools can lead to improved 
outcomes for students. Stronger Together would provide resources to 
communities that want to explore options for putting research into 
practice. Such plans could incorporate ongoing efforts of this 
Administration to invest in diverse, high-quality magnet and charter 
schools, as highlighted in the budget proposal. Several school 
districts and communities are already developing innovative diversity 
initiatives to improve student achievement, and with additional 
resources, these efforts could be scaled up and serve as models.
    The Budget would include $128 million--a $55 million increase--for 
Promise Neighborhoods. This increase would support up to 15 new awards 
to local partnerships to implement comprehensive, neighborhood-based 
plans for meeting the cradle-to-career educational, health, and social 
service needs of children and families in high-poverty communities.
    Another groundbreaking proposal is our Computer Science for All 
initiative. This proposal-- $2 billion in mandatory funding in fiscal 
year 2017 and $4 billion over 3 years--would support efforts in all 50 
states to expand access for all students to computer science 
instruction and programs of study. The budget also includes $100 
million in discretionary grants for Computer Science for All 
Development Grants for school districts that recognize the power of 
computer science to engage students in preschool through grade 12 in 
real-world computer programming and related skills in conjunction with 
other rigorous coursework, including STEM fields in which students from 
low-income families and students of color traditionally are 
underrepresented. Every year, increasing numbers of STEM-related jobs 
are created that require workers with backgrounds in computer science 
education, but too few school districts offer these courses, especially 
in high-poverty schools. The grants proposed in our Budget would focus 
on identifying and testing computer science instructional models that 
expand access to these opportunities for all students, but particularly 
for high school students in underserved communities, including in urban 
and rural areas.
    In addition, the Budget includes a proposal for Next Generation 
High Schools, which would promote the whole-school transformation of 
the high school experience in order to provide students with 
challenging and relevant academic and career-related learning 
experiences that prepare them to transition to postsecondary education 
and careers. This program would provide students with the academic 
foundation and skills they need to be successful, ensuring that all 
students in redesigned high schools participate in project- or problem-
based learning and have the opportunity to earn early college credit, 
and engage in experiences or postsecondary learning opportunities that 
build career-ready competencies. Accomplishing these goals will help 
improve longer-term outcomes for high school students, including 
increased high school graduation rates, higher rates of enrollment in 
postsecondary studies without the need to take remedial courses, higher 
postsecondary completion rates, and higher rates of completion of 
industry-recognized credentials and certifications.
    The Budget also includes $138 million, an increase of $31 million 
over the 2016 enacted level, for more vigorous enforcement of our 
Nation's civil rights laws by the Department's Office for Civil Rights, 
which ensures equal access to education. The Office of Civil Rights has 
been actively protecting the rights of all students through 
comprehensive strategies that include, among others, efforts to 
eliminate racial disparities in school disciplinary practices and 
procedures, and the enforcement of protections against bullying and 
harassment and sexual assault on college campuses.
    Finally, the Budget includes $500 million for the newly authorized 
Student Support and Academic Enrichment block grant, nearly twice the 
amount appropriated in 2016 for the antecedent programs. These funds 
can help expand course offerings across a range of areas, such as STEM 
and the arts, and bolster student achievement through such activities 
as mentoring or school counseling and expanding digital learning 
opportunities. Within the discretionary caps, we were unable to fund 
this new block grant at the fully authorized level, and thus have 
proposed that States have broader flexibility in how to target these 
funds to ensure that the funds provided to LEAs are robust enough to 
make a meaningful impact on students.
           expanding support for teachers and school leaders
    A second area of focus in our 2017 request is to provide support 
for teachers and leaders who are doing the daily work of implementing 
new college- and career-ready standards and aligned assessments, and 
turning around our lowest-performing schools. If we want all students 
to succeed, we must provide teachers with the preparation, support, 
opportunities for leadership, and autonomy they need to be effective in 
the classroom and to want to remain in the field. And we need to 
prepare, attract, and keep school leaders of diverse backgrounds who 
can create school cultures that bring out the best of students and 
staff in a climate that supports growth and learning for all.
    Our 2017 request proposes significant new resources to help ensure 
that all students have access to effective teachers and leaders and new 
opportunities for teachers to shape our approaches to improving student 
outcomes. First, our $1 billion mandatory RESPECT: Best Job in the 
World program would support the redesign of an estimated 200 high-need 
schools to create models that transform these schools into the best 
places to advance a career in education and thereby attract and retain 
talented and effective teachers and school leaders. For new and 
continuing competitive grant programs for teachers and leaders that 
span preparation, development, and retention, we request $525 million, 
an increase of $142 million over 2016. For example, the budget includes 
$250 million for the Teacher and School Leader Incentive Grants 
program--the reauthorized version of the Teacher Incentive Fund--to 
support continued innovation in the area of robust human capital 
management systems that help school districts and schools recruit, 
develop, support, retain, and advance teachers through every phase of 
their careers. We also would strengthen the pipeline of effective 
teachers and principals through a new $125 million Teacher and 
Principal Pathways program, which would make competitive grants to 
institutions of higher education and other nonprofit entities to 
support the creation and expansion of high-quality teacher and 
principal preparation programs. In addition we fund Title II-A at $2.25 
billion in formula funds. Finally, to attract the next generation of 
talented educators, we propose to streamline and expand the current 
postsecondary assistance available to teachers into one program that 
will provide up to $25,000 in loan forgiveness for serving in a high-
needs school.
   improving access, affordability, and completion in postsecondary 
                               education
    Higher education is one of the clearest paths to the middle class. 
At a time when jobs can go anywhere in the world, skills and education 
will determine success for individuals and for nations. Yet, far too 
many students do not go to college, or never complete their degree; we 
used to be first in the world in college completion, and now we are 
13th. Our budget request builds on the Administration's efforts to make 
college more affordable and accessible while putting forward important 
new initiatives to promote college completion. We must shift incentives 
at every level to focus on student success, not just on access. 
Students who do not complete their degrees are less likely to succeed 
in the workforce and have student loan default rates that are, on 
average, three times higher than those who graduate. Further, we know 
that taking a full course load helps students finish on time, at a 
lower cost and likely with less student debt, saving them both time and 
money.
    The request dedicates $188 billion to Federal student aid in fiscal 
year 2017, including $31 billion to Pell Grants and over $155 billion 
to student loans, benefiting more than 12 million students. The request 
expands the Administration's signature initiative, America's College 
Promise, which would support 2 years of free community college for 
responsible students, who get good grades and stay on track to 
graduate, as well as up to providing 2 years of college at zero or 
significantly reduced tuition to first-time, low-income students at 4-
year Historically Black Colleges and Universities (HBCUs) and Minority-
Serving Institutions (MSIs). We are also proposing a new $30 million 
HBCU/MSI Innovation for Completion Fund competitive grant program to 
foster innovative and evidence-based, student-centered strategies and 
interventions to increase the number of low-income students completing 
degree programs.
    The Budget proposes two initiatives totaling $2 billion in Pell 
Grants for the 2017-2018 award year to help students accelerate 
progress toward their degrees by attending school year-round and 
encouraging students to take more credits per term, increasing their 
likelihood of on-time completion. The first initiative, Pell for 
Accelerated Completion, would allow full-time students the opportunity 
to earn a third semester of Pell Grants in an academic year, enabling 
them to finish faster by taking additional courses year-round and 
better meeting the diverse needs of today's students. The second 
initiative, On-Track Pell Bonus, would create an incentive for students 
to stay on track or accelerate their progress towards a degree through 
a $300 bonus, effectively increasing the Pell Grant maximum award to 
$6,235, for students who take 15 or more credits per semester in an 
academic year, which is the course load typically needed for on-time 
completion.
    Research published in 2013 from the RAND Corporation suggests that 
inmates who participate in correctional education programs are not only 
43 percent less likely to recidivate but also 13 percent more likely to 
obtain employment post-release. Accordingly, we propose expanding 
postsecondary opportunity to incarcerated individuals eligible for 
release through the Second Chance Pell proposal that would restore 
their Pell eligibility with the goals of helping them get jobs, support 
their families, turn their lives around, and strengthen their 
communities.
    Finally, the Administration is re-proposing other key initiatives, 
including rewarding colleges that successfully enroll and graduate a 
significant number of low-income students on time; further simplifying 
the FAFSA; permanently extending inflationary increases of the maximum 
Pell grant award; redirecting campus-based programs to target 
institutions that offer affordable and quality education and training; 
reforming and streamlining income-driven repayment plans to simplify 
borrowers' experience and allow for easier selection of a repayment 
plan, while reducing program complexity and better targeting of 
benefits; strengthening teacher loan forgiveness; and protecting 
students and taxpayers from predatory colleges that are not delivering 
the high-quality education that students--and taxpayers--deserve.
               promoting greater use of evidence and data
    Over the last 7 years, we have pioneered efforts that encourage 
grantees and practitioners to use evidence of what works in education 
in ways that can improve student outcomes. Programs such as Education 
Innovation and Research and First in the World (FITW), which includes a 
30 percent set-aside for HBCUs and MSIs, will continue to scale up the 
use of evidence-based grant-making. Further, a focus on evidence and 
data also can be a powerful tool to advance equity. For example, under 
our new Federal education law, the ESSA, States will establish new 
accountability systems that will include indicators of success that 
reflect a broad picture of how schools are serving all children, and 
not just in academics. States could decide to look at information about 
students' socioemotional growth, for instance, and whether schools are 
helping children develop skills like resilience and the ability to 
effectively collaborate with peers.
    This Budget continues that commitment to improving student outcomes 
by increasing funding for programs that provide additional resources 
for interventions that either are based on evidence of success, or help 
build evidence of what works in education. The Budget strongly funds 
the infrastructure for evaluation within the Institute of Education 
Sciences, requesting $209 million for the Research, Development, and 
Dissemination program, $125 million for the Statistics program, and $81 
million for the Statewide Longitudinal Data Systems program, with a 
particular focus on using data at the local level. These requests will 
enable the collection of critical information, and help us disseminate 
this evidence of what works to policymakers and practitioners to 
empower them to improve student learning and narrow achievement gaps.
    Our request also includes $15 million to support InformED, which 
builds on the success of the new College Scorecard by making the 
Department's data and research across the education spectrum, including 
data and research on a wide range of issue areas for students at the 
Pre-K through college levels, more available--and actionable--for 
internal users and for the public. The 2017 Budget will help build new 
infrastructure to manage the collection, quality, release, and analysis 
of these data in innovative and effective ways.
                               conclusion
    In conclusion, our 2017 request reflects the President's 
determination to make the investments necessary to expand educational 
opportunity, position our children for success, and promote economic 
growth and global competiveness. I look forward to working with the 
Subcommittee to secure support for the President's 2017 Budget for 
education, and I look forward to your questions.

    Senator Blunt. Thank you, Mr. Secretary.
    We have votes scheduled at 11:30. I think if we all stay 
close to a 5-minute round of questions, we can get that done by 
11:30.
    The order I have, after Senator Murray and me, are Cochran, 
Baldwin, Alexander, Schatz, Lankford, Merkley, Cassidy, and 
Capito, and then whoever comes in. And we will probably have 
other people attend.

                  RESOURCES FOR MENTAL HEALTH SERVICES

    Mr. Secretary, on mental health services, we were able to 
put money in the 2016 budget that gives you and the Substance 
Abuse and Mental Health Services Administration some 
opportunities to look at areas like Baltimore and Ferguson, 
Missouri, that had substantial community unrest and look for 
what we might do additionally in the school building itself to 
provide some mental health assistance. How is that beginning 
to--what path forward are you seeing happen there with you and 
SAMHSA (Substance Abuse and Mental Health Services 
Administration)?
    Dr. King. I appreciate the question. It is very important 
that we provide additional resources in schools where students 
are struggling with the impact of events like those in Ferguson 
and Baltimore. We are in the early stages of developing the 
grant process that will allow us to award funds to communities 
that have had these challenges. We also want to work with those 
communities to provide technical assistance so that they can 
leverage existing funding streams, like Titles I and IV, to 
support the sort of school-based counseling and mental health 
services that are essential for those students.
    Senator Blunt. Well, as you know, kids who are victims of 
violence, witnesses of violent acts, surrounded by violence, 
and have lots of things going on that make it hard to focus on 
the things that they otherwise would hopefully be focused in 
school. So I am very interested, and I know the committee is, 
on what you are doing there and the framework you are putting 
together to create this new opportunity.

                            CHARTER SCHOOLS

    On charter schools, you have had a lot of experience with 
charter schools. You were the Managing Director of Uncommon 
Schools, a charter management organization in New York, New 
Jersey, and Massachusetts. Also, you have public school 
experience. What do you think charter schools add to the public 
school opportunities?
    Dr. King. We think charters are an important part of the 
public education landscape. Certainly the schools that I was 
associated with are demonstrating that with the right set of 
supports, high-needs, low-income students can excel. We see all 
over the country examples of high-performing charters that are 
implementing strategies like a longer school day, more 
intensive professional development for teachers, wraparound 
services, and other strategies to try and support their 
students' success.
    We worry, on the other hand, that there are charters that 
are under-performing, and I think one of the critical elements 
in the success of the charter effort is quality authorizing. 
And so the Charter School Grant program is a very important 
part of that, helping authorizers continue to improve their 
practice so that they are replicating high-performing charters 
and taking action to close charters that are not fulfilling the 
responsibilities of their charter agreements.
    Senator Blunt. You know, in St. Louis and Kansas City, 
both, we have a significant number of charter schools. We had a 
few of those schools that did not perform at a level that they 
needed to. But generally, the schools that have performed have 
more and more competition of people who want to be part of the 
lottery to get in.

                               IMPACT AID

    On the Impact Aid topic, I am not going to say a lot about 
that, but where there is substantial Federal land in a school 
district, usually that means you have longer bus routes, you 
have lots of things going on because of the geography that you 
have to deal with that is under Federal control. And you also 
clearly take all of that land off the tax rolls. Cutting 
funding to Impact Aid is an annual submission on the part of 
the Department, and it is an annual rejection by the committee. 
We are not going to cut funding this year. And maybe that is 
all that needs to be said there.

                         STUDENT LOAN SERVICING

    On student loan servicing, talk to me about this a little 
bit. I know you have gone to great detail to put metrics 
together, to look at which servicers appear to have fewer 
students who are not able to pay back loans the way we had 
hoped students would be able to. But that does not seem to have 
anything to do with how you allocate new loans to be serviced 
by organizations.
    Dr. King. As was required in the 2016 budget, we actually 
have a new allocation for the servicers, the TIVAs, and the 
not-for-profits for the next few months, through September 
based on our existing metrics.
    But our key concern is to make sure that servicers are 
doing a good job by students. We do have some concerns that our 
existing metrics do not necessarily account for the difference 
in the types of loans that have been managed by the TIVAs as 
opposed to the not-for-profits. And so as we move towards 
September, we are working to try and refine those metrics and 
certainly will be eager to get input from all of you and from 
your staff and from the private sector on how we ensure that 
the metrics are as fair as possible to borrowers. We want to 
make sure that the loans are distributed in a way that reflects 
best service to borrowers.
    Senator Blunt. Borrowers, taxpayers, and future students 
who benefit from those revolving funds all need to be 
considered here. I think you are telling me that you are 
looking at the metrics you have now put together. You are 
looking at the loans that are behind those metrics, and 
hopefully the metrics will matter. And maybe your loan mix is 
something you want to look at.
    Senator Murray.

                     REFUNDS TO MILITARY BORROWERS

    Senator Murray. Thank you very much, Mr. Chairman.
    Dr. King, I, as you know, have been pushing the Department 
for some time now to make sure that the Federal student loan 
servicing quality reaches the highest standards of customer 
service and complies with the law.
    Last week, as you know, in response to a review I and other 
Senators requested, the Inspector General reported that the 
Department's review of servicers' compliance with the SCRA 
(Servicemembers Civil Relief Act) followed a deeply flawed 
methodology and papered over mistreatment of military 
borrowers.
    Now, we talked about this, and I am really pleased the 
Department has committed to refund all of those military 
borrowers for the money that they were overcharged, correcting 
the most disturbing finding in that IG's (Inspector General) 
report, but remain troubled that they occurred in the first 
place and that a valid review of compliance with the SCRA still 
has not been conducted. Our veterans, our students, our 
families deserve better.
    And I wanted to ask you what is now the timeline for 
issuing those refunds to our military borrowers.
    Dr. King. I share your concern about this issue. I want to 
make sure that we protect our military borrowers.
    As you indicated, since 2014, we have used a data match 
system from the Department of Defense that has allowed us to 
provide the benefit to all eligible borrowers. We have acted 
now to have the servicers go back and apply that data match 
system to all borrowers from 2008 to 2014 to ensure that any 
borrower who would have benefited from this benefit has that 
opportunity, whether they applied for it or not.
    Our next step is to conduct a new review, informed by the 
findings of the Inspector General's report. We will launch that 
new review shortly, guided by the Inspector General's 
recommendations on methodology. And that review will then help 
us decide next steps with the servicers with respect to what 
happened prior to 2014.
    Senator Murray. So when do you actually expect those 
refunds to be issued to the borrowers themselves?
    Dr. King. So we expect the refunds to come quite quickly. 
We will go year by year, working with the Department of 
Defense, on this data match. So we hope that that will happen 
in short order, and then we will conduct this additional review 
as well.
    Senator Murray. Well, going forward, you and I are going to 
have many discussions about how we make sure that student loan 
borrowers are well served and this does not happen again and 
benefits are not denied to our military or anyone.

                        LOAN SERVICING OVERSIGHT

    But I wanted to ask you, following up on the chairman's 
question. Earlier this year, the Office of Federal Student Aid 
established a new student aid enforcement unit to carry out, 
among other duties, loan servicing oversight. Your budget 
requests additional resources for that new unit, and I 
understand you are planning to announce a major recompetition 
of the Federal loan servicing contracts soon.
    Can you tell me how loan servicing oversight will work 
better under the new servicing contracts and actually when you 
plan to announce that?
    Dr. King. We expect to announce the first stage of the new 
loan servicing procurement hopefully by the end of the month, 
perhaps early next month.
    Our hope with that procurement is to build in best practice 
in servicing. We have spent a significant amount of time 
gathering information from other agencies, gathering input from 
stakeholders to try to ensure that the expectations for the 
servicers reflect the highest standard for service to borrowers 
and also to make sure that the procurement process protects the 
interests of taxpayers.
    We expect to launch that shortly. I think it will result in 
improved servicer quality, but also we take very seriously our 
responsibility to conduct servicer oversight. That is an 
important function of the Department, and we have got to make 
sure that the servicers hold to the requirements of the new 
contracts.

                         COLLEGE AFFORDABILITY

    Senator Murray. Switching topics really fast. College 
affordability, an issue I hear from absolutely everyone. And I 
have actually used my HELP website now to ask for stories from 
students and families about their struggles to pay for college. 
I have been overwhelmed by the stories that have come to me.
    I had a young man named Brian from my State. He said he had 
to help pay for college. He applied for scholarships. He found 
part-time jobs, and of course, he had to take on student debt. 
He is now a high school teacher. He is struggling. He told me 
he makes the minimum payment only on his loans, and he, quote, 
lives with a daunting umbrella of student debt weighing on him.
    You know, the yearly costs of tuition and room and board at 
public 4-year institutions is now actually five and a half 
times what it was in the early 1980s.
    So the Pell Grant maximum award now only covers 30 percent 
of the average college costs and overall nearly 42 million 
Americans hold more than $1.3 trillion in student loan debt.
    I wanted to ask you how your budget proposal actually helps 
strengthen the Pell Grant program for the long term and help us 
improve access to college.
    Dr. King. Yes. This is a hugely important issue. We worry 
tremendously about the student debt crisis.
    One of the key factors driving the debt crisis for 
students--or two of the key factors. One is managing their 
debt. Two is folks who have debt but do not actually have a 
degree because they started school but did not finish, and then 
they are trapped in a cycle where they cannot pay back their 
debt because they do not have a good job, because they do not 
have a degree, and they cannot go back to school.
    Our budget proposal focuses on both issues. We call for 
streamlining the income-based repayment programs so that we can 
make sure that folks can manage their debt effectively and cap 
their payments at 10 percent of their discretionary income.
    We call for improvements to Pell, including allowing 
students to access summer Pell and year-round Pell so that 
students can stay on track to graduation. There is good 
evidence that that helps students stay on track.
    We include Pell bonus that incentivizes and rewards 
students who take 15 or more credits each semester because 
there is good evidence from around the country that higher 
education institutions that have focused on 15 credits per 
semester have seen significant improvements in their completion 
rates.
    We build in an incentive for institutions because we think 
it is important that institutions see completion as their 
responsibility, and we want to reward institutions that are 
doing a good job for completion for Pell students.
    We call for indexing Pell to inflation beyond 2017. We 
think that is hugely important.

                       AMERICA'S COLLEGE PROMISE

    And the President's America's College Promise proposal, 
which focuses on 2 years of community college tuition for 
responsible students, does so in a way that would require 
significant State investment. I think one of the key factors 
driving the change in cost for students is that many States 
have disinvested from public higher education. The America's 
College Promise program is designed in a way that would 
incentivize State investment.
    Senator Murray. Thank you.
    I have gone way over my time. I apologize.
    Senator Blunt. Thank you.
    The chairman of the full committee, Senator Cochran.
    Senator Cochran. Mr. Chairman, it is a pleasure to welcome 
the distinguished Acting Secretary to be here today to talk 
about his plans for carrying out legislation that Congress has 
recently adopted at the request of Senator Alexander, who has 
spent a lot of time on evidence-based strategies to improve 
student outcomes.
    What is your reaction to this framework of Federal 
suggestions, in effect, to meet the challenges that are 
presented to our underserved and smaller school districts that 
are scattered around States like mine where most of the people 
ride the buses to school? ``Busing'' is not a bad word. If it 
were not for busing, I do not know what our schools would do. 
But we want to be sure that we do attract the best teachers and 
we encourage students in the most cost-effective way to get a 
good education and to help contribute to continued growth in 
our economy and the quality of life of our American citizens.

           OPTIMISM REGARDING THE EVERY STUDENT SUCCEEDS ACT

    Dr. King. Absolutely. We are very optimistic about 
implementation of the Every Student Succeeds Act. We think it 
strikes the right balance, allowing State and local flexibility 
while maintaining important Federal civil rights guardrails. We 
think there is an opportunity for States and districts to do a 
better job leveraging evidence to drive their interventions 
when schools are struggling.
    There is an opportunity for schools to broaden the 
definition of school quality. One of the challenges of the No 
Child Left Behind Act you often saw was a narrowing of the 
definition of school quality to just English and math 
performance. English and math performance are hugely important, 
but so too are science and social studies and access to art and 
music and access to advanced placement courses. And so we are 
optimistic about the work ahead.
    Senator Cochran. Thank you.
    Senator Blunt. Senator Schatz.

                         COLLEGE ACCREDITATION

    Senator Schatz. Thank you, Mr. Chairman.
    Secretary King, glad to have you here.
    I wanted to ask you about the accreditation process for 
higher education institutions. As you know, in 2014, there was 
a GAO (Government Accountability Office) study that showed that 
around 1 percent of those who were going through the 
accreditation process actually lost accreditation. You know the 
data, but I will just give you a quick data point. We have at 
least $10 billion going to for-profit institutions that have 
graduation rates of less than 10 percent.
    And I am wondering whether you think we are accrediting the 
right percentage of institutions or whether--I mean, it seems 
to me that given what the DOE (Department of Education) is 
doing in the space of cracking down on malfeasance, that there 
is another part of the Department of Education that does not 
seem to be caught up with your overall policy on this, and that 
is accreditation.
    Now, I think some of it is the ecosystem that we have set 
up over time where the accreditation agencies are actually 
overseen by boards of directors that are populated by the heads 
of the institutions that are subject to the accreditation. I 
think there are a number of statutory and sort of institutional 
process things that need to change over time.
    But I want you to tell me what you think is happening on 
the accreditation side and what needs to happen next.
    Dr. King. I appreciate the question. We are very worried 
about accreditors. You know, my predecessor, Secretary Duncan, 
I think referred to them as the watch dog that does not bite. 
Accreditors have not, in our view, done enough to ensure that 
higher education institutions are serving their students well 
and getting their students to graduation with a degree that 
allows them to be successful in the 21st century economy.
    We have a number of initiatives around increasing 
transparency around accreditors and showing that they share 
with the public more of the information about the process that 
they have in place. We have asked accreditors a series of 
questions around their practices, particularly with respect to 
schools that have very poor graduation rates and poor student 
outcomes.
    We are committed to using our existing authority to try to 
strengthen the process, but we think there is a need for a 
statutory change here as well. And we would be happy to work 
with you and your staff on that. We think it would be better if 
there were a clearer line from accreditors to the Department on 
issues of accountability for student outcomes.
    Senator Schatz. Well, we will work with you on legislation. 
I know it will not be easy and it will not be instantaneous. 
And I think if you can keep the push--continue to push on your 
side within the existing statutory authorities, we will be able 
to work together on this.

                         PELL GRANT INCENTIVES

    I wanted to ask you about this bonus for taking 15 credits. 
The University of Hawaii has a great program, 15 to Finish. And 
their metrics are incredibly encouraging over a relatively 
short period of time. So I like the idea. I am not persuaded 
that a $300 bonus is sufficient to incentivize somebody to make 
the right set of choices, and I am not persuaded that if you 
are 18 years old and you are told you get the full Pell Grant 
amount for 12 credits, that you are not just going to go ahead 
and take the 12 credits and pull down the full amount. And very 
few college counselors are actually telling the kid, by the 
way, if you do the 12 credits, you are in for 6 years.
    And so I wanted you to articulate, first of all, what the 
overall problem is, but I am more interested in whether you 
actually think that this 300 bucks is going to make a 
difference.
    Dr. King. I appreciate the question.
    The University of Hawaii's work on this is excellent. And I 
think what you see at the University of Hawaii is two things. 
One is focusing the students on the benefits of taking 15 
credits, but also the institutional focus that has allowed them 
to look at questions like whether or not students can take all 
of the classes that they need to for their majors the way their 
schedule is currently structured. So I think it is really an 
institutional culture question as well as a matter of 
incentives for students.
    We do think the $300 will help focus students' attention, 
but we do not think that alone is enough. That is why we also 
propose the institutional bonus for completion rates because we 
think higher education institutions need skin in the game 
around completion outcomes.
    It is also why we proposed funding for First in the World, 
$100 million to continue a competitive grant program that is 
focused on building an evidence base around the kinds of 
supports that help institutions of higher education improve 
graduation rates.
    Your point about counseling is exactly right. What we are 
seeing with the First in the World grantees is where schools 
put in place high-quality counseling, helping students navigate 
which credits to take, which classes, how to use their time, 
what to do when they are struggling in a class, we see improved 
completion outcomes.
    Senator Schatz. Thank you.
    Senator Blunt. Senator Alexander.
    Senator Alexander. Thank you.
    Dr. King. Mr. Skelly, I remember seeing you at the 
Department when I was Secretary. I think we worked together 
some years ago. Congratulations on your service.

                        RISK MANAGEMENT STRATEGY

    Dr. King, following up on Senator Schatz's point, 3 years 
ago Senators Mikulski and Bennet and Burr and I asked a broad 
group of higher education people to give us specific 
recommendations about how we could cut through the so-called 
jungle of red tape that unnecessarily interferes with the wise 
use of the money they have. And they gave us a really good 
report. Working with Senator Murray on our committee, we are 
trying to identify maybe 3 dozen of those that might be a part 
of a reauthorization of higher education or some version of it. 
But the leaders of that committee, Chancellor Kirwan, 
Chancellor Zeppos from Maryland and Vanderbilt met with Arne 
Duncan and gave him a list of several ideas, some of which 
among the top 10 of the 59.
    Now, I want to ask you about one of those, which is not 
something you can do, but relates to Senator Schatz's question. 
One of the recommendations was that we allow accreditors--and 
this will take a change in law--to spend more time on a for-
profit school with problems and less time on Harvard or UCLA in 
their accrediting process, in other words, risk-adjusted 
approach. Does that not just make common sense?
    Dr. King. We would certainly be happy to work with you on a 
risk management strategy for accreditors.
    Senator Alexander. But they have 6,000 institutions to 
accredit. It does not make any sense to me that you would spend 
the same amount of time on a well functioning university that 
everybody regards and the same amount of time on an institution 
that is in a lot of trouble and everybody knows that too. So 
you may be able to effect that. We may be able to effect that 
through legislation.

                          FAFSA SIMPLIFICATION

    Here is another suggestion they made. This is the 
application form that 20 million families fill out every year 
for student aid, 108 questions, very intimidating, discourages 
a lot of students. Senator Bennet and I and Booker and Burr 
suggested it be two questions because that is the testimony we 
heard from almost everybody. The President has said that he 
likes going from 108 questions to as close to 2 questions as we 
can. His budget for the last 2 years has said there are 30 
questions that he could take off that 108. Can you tell us--not 
today, but will you tell us what those 30 questions are so we 
can at least go from 108 to 78 and then go more rapidly toward 
two as we can?
    Dr. King. Absolutely. And one promising step, as you know, 
is that we are allowing, beginning next year, folks to use the 
prior year tax information, which both satisfies the report and 
also will simplify this process.
    Senator Alexander. That is part of our legislation and it 
is part of the report. And I applaud you for doing that.

                      THREE REPORT RECOMMENDATIONS

    Now, there are three provisions in that report--and I will 
not ask you to get into them today. But I am going to ask you 
will you commit to try to do these three that are in the top 10 
of the report by the end of the year.
    One is the return of Title IV funds, an overly complex, 
200-paragraph regulatory text about just the question of a 
student returning money to the Federal Government when they 
withdraw from school.
    Number two, financial responsibility standards. These are 
regulations written in the 1990s that are so complex that 
Georgetown University got a near failing grade on a recent 
financial test, which is absurd.
    And three, on the reporting of data to the Department. They 
say there are 11 different annual surveys. At Vanderbilt, one 
survey required 1,000 person-hours to complete. Surely that 
could be simplified.
    Will you please work on those three that are in the top 10 
and see if they can be accomplished by the end of the year?
    Dr. King. I am certainly committed to working with you and 
your staff to see what progress we can make on these.

                      CONGRESSIONAL INTENT IN ESSA

    Senator Alexander. Now, a last question, and it is more of 
a comment. We are looking for signals about how well you are 
going to follow the impulse of Congress in this new elementary 
and secondary education law. We had a consensus that it needed 
to be fixed, and our consensus was, while we wanted the 
reporting requirements on test results, we wanted the decisions 
about what to do about the results of those tests back with 
States, classroom teachers, et cetera. It was not just 
Republicans. It was not just Governors. It was teachers. It was 
almost everybody, which is why we got 85 votes in the Senate 
for the bill.
    Yet, your budget recommends $5.3 billion for six new 
elementary and secondary programs that we did not authorize and 
only $500 million for the $1.65 billion block grant that we did 
authorize. A lot of Senators wanted some new programs and they 
did not get them because we eliminated 49 programs. So why 
would you be recommending new programs that we did not 
authorize just this past December and not funding properly the 
block grant that we did authorize?

                      TITLE IV BLOCK GRANT PROGRAM

    Dr. King. Well, let me start with the Title IV programs. We 
think Title IV is very important. We think the priorities in 
Title IV around a well-rounded education or an arts education, 
school counseling, safe and supportive school climates are all 
very important.
    The prior Title IV programs had about $278 million of 
funding. We have proposed taking that to $500 million, a $222 
million increase for the Title IV batch of programs.
    But we were trying in this budget to both advance the 
President's priorities and stay within the caps on 
discretionary spending. We are certainly open to working 
together with you on this committee to look at how we move 
forward in a way that acknowledges those priorities and makes 
the important investments that we all believe in.
    Senator Alexander. Thank you, Mr. Chair.
    Senator Blunt. Senator Merkley.

                              PROJECT SERV

    Senator Merkley. Thank you, Mr. Chairman.
    And thank you, Secretary King. I appreciate so much the 
Department's support for Umpqua Community College where we had 
a terrible tragedy this past year. One of the ways the Federal 
Government has been supportive is through the SERV grants, the 
School Emergency Response to Violence. UCC has not been able to 
take full advantage of those funds because the flexibility is 
limited specifically, for example, for help with the equipment 
like security cameras and door locks.
    Can you work with us to expand the flexibility so when a 
school goes through a tragedy, they can pursue the best 
strategies without running into significant grant hurdles?
    Dr. King. I am certainly happy to talk with you and your 
staff about that and figure out where there is flexibility 
under the statutory language.
    Senator Merkley. I am glad you will talk with us, but 
hopefully we can do more than talk.
    Dr. King. Yes, sir. Again, I think we will have to look at 
what flexibility we have at the Department. But as you know, we 
have been in constant communication with the school from the 
outset and want to make sure that we are as supportive of the 
school and the students as possible.
    Senator Merkley. Thank you.

                         STUDENT LOAN REPAYMENT

    Second, I wanted to turn to an act I introduced, the AFFORD 
Act, which takes the strategy income-based repayment so that 
students are not saddled with debt that way exceeds what their 
discretionary income could possibly pay. This was a boutique 
program. Your administration, the team Obama, proceeded to 
elevate it in the regulations to make it more prominent.
    But we need to anchor it into law so that it is a prominent 
option from the beginning so we can tell people in seventh and 
eighth grade that there is an affordable repayment strategy 
that will not leave them on a monthly basis weighted down with 
a millstone around their neck because that very fear--I mean, 
not only are we talking about the effect of college debt when 
it occurs. We are talking about the effect of college debt on 
students' aspirations way back into junior high school. And so 
I would like to encourage your team to help advocate for taking 
the concept that you all have elevated in the regulations, 
working with Congress to make it a permanent part of the law so 
we can go to those seventh graders and say there is an income-
based repayment option so that you will not be drowning in 
month-to-month debt repayment.
    Dr. King. I absolutely would love to work with you on that. 
I also think that the America's College Promise idea and the 
notion that we will be able to say to all students--if you are 
hardworking, if you are responsible, you will be able to get 2 
years of community college tuition for free--would also have 
that powerful incentive effect.

                     PREDATORY FOR-PROFIT COLLEGES

    Senator Merkley. Thank you.
    Third, I want to turn to a letter that my colleague from 
Washington State, Senator Murray, led and I believe about 3 
dozen Senators signed, and it is really related to the 
situation that students are in when they have been victims of 
predatory tactics by some bad actors within our for-profit 
college community.
    And I want to clarify. Not all for-profits are predatory, 
but there are a few that have been very misleading in the way 
they appeal to students. And when that happens--this letter, 
which Senator Murray propagated, lays out several things.
    One is streamlining the process so there is automatic 
relief to groups of students who have been the victims of 
predatory practices, rather than them having to go through a 
complicated application process. Remember, many of these 
students have moved multiple times. It is hard for the mail to 
catch up to them. They may never even get the application. They 
may never know they are even eligible. So being aggressive in 
providing relief would be a much better position to be in.
    And it should not be dependent upon Federal recovery of 
funds from the schools.
    And students should not be subject to arbitration 
agreements. That should just be a disqualifier right from the 
beginning. Any school that wants to deny its students a fair 
hearing as a predicate to being signed up and it is hidden in 
the fine print should be a high suspicion from day one. And you 
all can make a difference on that.
    And finally, the 2-year statute of limitations is simply 
not sufficient for students to be able to respond.
    So please clear the path to make it a much stronger, wider, 
flatter avenue for students to get fair treatment in these 
situations.
    Dr. King. The encouraging news I can share is that I think 
the borrowers defense regulations that are currently being 
negotiated will simplify the process, will streamline the 
process, and will make it easier for students to get relief. 
Importantly, we also want to prevent students from being 
victimized in the first place, and I think the victory in the 
appeals court on gainful employment regulations suggest that we 
will have a new set of tools there. And our new enforcement 
unit will be very focused on ensuring that all institutions 
protect their students.
    Senator Merkley. Well, I appreciate all of that. That is 
the right direction, but there are several additional items 
that I have just mentioned that I think could even take you in 
a much stronger position and better position for our students.
    Dr. King. I look forward to working with you on this.
    Senator Blunt. Senator Lankford.

               DEAR COLLEAGUE LETTERS AND OTHER GUIDANCE

    Senator Lankford. Thank you, Mr. Chairman.
    Good morning. Good to be able to see you again and get a 
chance to visit with you.
    We have talked about before--I chair the Regulatory Affairs 
Committee here in the Senate which deals with how we actually 
promulgate rules and regulations and the process of that. There 
is a separate issue of whether each regulation is a good idea 
or bad idea, but there is a clear legal standard for how we do 
regulations.
    You also know I have serious issues with the Department of 
Education, how they have promulgated some of the guidance 
documents, which are called ``Dear Colleague'' letters. They 
appear to be policy documents, and they appear to be 
regulations more than they are just clarifications in the 
process. This process started long before you got there, so 
this is not about you and the months that you have been there 
at this point. But my concern is it seems to continue at this 
point.
    So let me just highlight a couple things that I have shared 
with the Department of Education that you know well on this.
    In 2010 and 2011, there were ``Dear Colleague'' letters 
that were put out dealing with the Office for Civil Rights, 
which by the way has a terrific mission and I am very 
supportive of the mission that they have. The issue is the 
process of how it is actually coming out.
    One of the ``Dear Colleague'' letters interpreting Title IX 
forecloses all standards of proof using disciplinary 
proceedings except for preponderance of evidence. And now in 
our conversation and from the letter that I received back from 
my letter, the statement was there were two letters of findings 
from Georgetown and from Evergreen State that were the basis 
for that.
    So here is my question. Do letters of finding form a legal 
precedent? Do other people have to be able to follow a letter 
of finding from a different university? Is that a legal 
precedent?
    Dr. King. No. As we have talked about, we do not view those 
findings as setting precedent.
    Senator Lankford. So let me ask you this. So another school 
should not have to rely on compliance to a different school's 
letter of finding.
    Dr. King. That is right.
    Senator Lankford. Same with the guidance documents? They 
are nonbinding as well. Is that correct?
    Dr. King. That is right. The institutions are accountable 
to the law and regulations. The guidance is intended to provide 
clarity and examples of best practices.

                 INTERPRETATION OF NONBINDING GUIDANCE

    Senator Lankford. So let me just follow through on that 
because this becomes a struggle as I deal with universities 
around the country. So if schools were to ignore the letters of 
findings and the guidance documents, which are all nonbinding, 
rely on their own good faith interpretation of the Title IX 
language, this equitable resolution, if they were to rely on 
their good judgment on that, their own legal counsel on that, 
then are they okay on that? Instead of preponderance of the 
evidence, if they rely on clear and convincing evidence, are 
they okay? Are they within their bounds to do that?
    Dr. King. As we discussed, our interpretation of equitable 
resolution is that that requires the preponderance of evidence 
standard. And our goal with the guidance is to convey our 
interpretation of the law, but an institution has the 
opportunity to go to a hearing or, beyond that, to go to court 
to challenge a potential finding from the Department.
    Senator Lankford. So what I am trying to determine here is 
if there was a letter of finding that you say this is the 
precedent for it, that they cannot use clear and convincing 
evidence, they now have to use preponderance of evidence and 
they have to shift to that, why that is not a regulatory 
decision that is made because if I look at the phrase from the 
law that says ``equitable resolution,'' I am not going to 
immediately look at that and say that is preponderance of the 
evidence. You are saying it is not legally binding. They do not 
have to go by a letter of finding. They do not have to go by a 
guidance. But if they do not, we are going to take them to a 
hearing and to court.
    Dr. King. We believe, based on the Department's 
longstanding--as we discussed, this is a longstanding 
interpretation of equitable resolution that predates this 
administration--longstanding interpretation that equitable 
resolution would mean preponderance of the evidence. So it 
would be the civil standard as well.
    Senator Lankford. It did not at Yale. It did not at 
Harvard. It did not at Princeton. It did not at UVA. It did not 
at Ohio State. And I could keep going through a lot 
universities that all use clear and convincing evidence that 
now had to shift to a new form of that because of a guidance 
document, a ``Dear Colleague'' letter, that came out to them 
that they felt compelled to be able to shift from one or the 
other. So you can say it is longstanding. It was longstanding 
in some institutions. It was clearly not longstanding in all of 
them.
    I am not getting at whether that is the right or wrong 
evidence which, by the way, I think preponderance of evidence 
is not a high enough standard. That is irrelevant. The issue is 
this came out from a ``Dear Colleague'' letter, not from 
regulation. There was not an open conversation on this. It did 
not go through the process. It was a new interpretation of 
equitable resolution that outside entities did not have the 
opportunity to be able to participate in, which is the law.

                          EQUITABLE RESOLUTION

    So what I am pushing is when the Department of Education 
promulgates a new rule, promulgate a rule, go through the legal 
process. Do not send out a ``Dear Colleague'' letter and say we 
had a letter of finding from two other schools, and so that is 
the basis now for a ``Dear Colleague,'' which would create a 
new guidance which universities have to shift all their 
policies, add a tremendous number of staff, change all their 
procedures on something that was not a regulation.
    Dr. King. Senator, as I indicated, I appreciate the 
concern. I think our view is that in cases that came to the 
Department, prior to this administration, prior to the 
guidance, the standard that we applied was our interpretation 
of equitable resolution as preponderance of the evidence.
    But I appreciate the distinction you are making, and I 
think we are happy to work with you and your staff to look at 
whether there are ways that we can more clearly communicate to 
higher education institutions.
    Senator Lankford. Which I would be glad to do. Kent 
Talbert, who is the lawyer, used to be the general counsel at 
the Department of Education. When he saw the letter that came 
back from your office, he used the phrase ``glossed over'' the 
question whether the Department is obligated to use a formal 
rulemaking process. We are saying two different things. I am 
saying there is a formal rulemaking process. You are saying we 
had some prior stuff. We have the grounds to do it. This is a 
legal question more than it is anything else. I do want to 
continue this. I am looking forward to your response to the 
next letter on this. But when a former counsel from the 
Department of Education says I am being glossed over, I think I 
am being glossed over in this. And I want us to be able to 
resolve this, the process of actually how we put our guidance.
    I am way over time. I apologize, Mr. Chairman.
    Senator Blunt. There will be a little time for a second 
round of questions too if you want to finish up.
    Senator Cassidy.

                     FUNDING FOR DYSLEXIA SERVICES

    Senator Cassidy. Nice to see you again.
    One of the things I have been interested in in these 
hearings is dyslexia. You got a budget. If you include Pell 
Grants north of $60 billion, are you all doing anything 
specifically for dyslexics?
    And just to put this into context, about 20 percent of 
children are dyslexic. It is identifiable by first grade, and 
it will remain with the child throughout his or her career 
unless addressed. And right now, we have heard in previous 
testimony that no school district in the Nation screens for it. 
It is just amazing. Not a single one addresses or screens for 
the most common learning disability that is identifiable in 
first grade. So it is something we should be concerned about.
    To what degree does your budget attempt to address this 
issue?
    And by the way, just for the record, I would like to, Mr. 
Chair, submit an article for the record from the ``Journal of 
Pediatrics'' which speaks of both the prevalence of dyslexia 
and the fact that it is identifiable in first grade and that 
this defect persists throughout the child's education.
    Senator Blunt. Without objection.
    [The article follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Dr. King. Thanks, Senator. I appreciate the question. As we 
talked about, I saw firsthand as a teacher and a principal the 
impact that dyslexia has on students and the power of high-
quality services being provided to dyslexic students, giving 
them access to reading and language and unleashing their 
academic potential in a way that would not have happened if 
they had not gotten those high-quality interventions. So I 
share your commitment on this issue.
    In the 2016 Budget, there was funding, $1.5 million, for 
launching a technical assistance center focused on dyslexia. We 
are moving forward with that process and will certainly update 
you on that as that moves along.
    We are working with 30-plus States in our results-driven 
accountability work on IDEA (Individuals with Disabilities 
Education Act) implementation, providing technical assistance 
on literacy-related disabilities, including dyslexia in 
particular. We have done a ``Dear Colleague'' letter, a 
guidance letter to districts on dyslexia, and resources that 
they can tap into on supporting their students with dyslexia. 
And certainly many of our discretionary grant programs on the 
IDEA side are supporting literacy-related disabilities.
    [The letter follows:]

    This letter clarifies that there is nothing in the IDEA that would 
prohibit the use of the terms dyslexia, dyscalculia, and dysgraphia in 
IDEA evaluation, eligibility determinations or IEP documents. See: 
http://www2.ed.gov/policy/speced/guid/idea/memosdcltrs/guidance-on-
dyslexia-10-2015.pdf.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. King. But you are exactly right. There is more that we 
need to do as a country for children with dyslexia. However, it 
is inaccurate to say that no school district in the Nation 
screens for dyslexia. Again, I refer to the Department's Dear 
Colleague previously cited that there is nothing in the IDEA 
that would prohibit the use of the terms dyslexia, dyscalculia, 
and dysgraphia in IDEA evaluation, eligibility determinations 
or IEP documents. I think this technical assistance center will 
help us and States and districts identify ways that we can make 
progress.
    Senator Cassidy. You are putting a 40 percent overhead on 
that technical assistance center. It seems like a pretty steep 
overhead on that. Obviously, we would rather less be spent upon 
administrative costs and more actually coming up with best 
practices as to how to intervene in the child's life.
    By the way, just for the record, just for consequences, 
there is a study out of Texas showing that 48 percent of 
inmates are dyslexic. And my work as a physician with those who 
are incarcerated, illiteracy, the absence of a father figure, 
and drugs are the unholy trinity that is so common. And again, 
this establishes 48 percent of the children are dyslexic. I 
would like to submit that for the record too.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Senator Cassidy. So I would say $1.5 million--it is a 
start, but in a budget of $66 billion, it is kind of a leaky 
faucet. And so I would encourage a little bit more.
    Dr. King. Yes. I want to note that the Budget request 
includes nearly $12 billion for the Grants to States program, 
which can be used and is used for the provision special 
education and related services, including child find and 
evaluation, for students with disabilities including those with 
dyslexia at the discretion of States, districts, and the IEP 
teams.
    Also, the award for the technical assistance center to be 
made in fiscal year 2016 does not yet have an indirect cost 
rate associated with it since there has not been a grantee 
selected through the Department's competitive award process.

                    FUNDING LEVELS FOR BLOCK GRANTS

    Senator Cassidy. Secondly, just to follow up on what 
Senator Alexander spoke of, it is kind of crazy. On a 
bipartisan basis we proposed increasing block grants, and you 
all do not. And we proposed closing programs and you all expand 
them.
    Now, let me just come back to what Senator Alexander asked. 
It really seems since Senator Alexander advocated for you being 
appointed so that we could follow through on the clear intent 
of the Congress in terms of implementation of the law, right 
out of gates, it looks like you are kind of ignoring the clear 
intent of Congress, which was to give block grants and to 
decrease individual programs. As an example, clearly the block 
grant funding is not sufficient. In your budget, you actually 
allow States to allow school districts on a competitive basis 
to apply for this money. Yet, we intended for there to be 
enough money that the State could do the applications and then 
filter the money down to the district levels.
    Just going back to this, we want you to give a block grant. 
That was the clear intent of the law. Why not? It is just kind 
of a question that has to be asked.
    Dr. King. Two points on that.
    As I indicated earlier, the programs that were folded into 
Title IV last year received $278 million in funding. We have 
proposed $500 million in funding, so a $222 million increase.
    Senator Cassidy. So we wanted to back that off. You have 
doubled. So that kind of proves my point that the clear intent 
was----
    Dr. King. No, no. Sorry if I was unclear. Those four 
programs are now all folded into a single Title IV grant 
program. We have actually taken what was $278 million in four 
programs and put $500 million--a $222 million increase--into 
the Title IV grant program. So that is consistent. Certainly we 
are open to conversation about whether that number can be 
increased, along with other priorities within the discretionary 
spending caps.
    The other point I would make is that we propose allowing 
States the option of distributing the grants on a competitive 
basis because we worry that, as currently constructed, you 
would have districts that could receive as little as $10,000, 
which seems too small to meaningfully impact arts education, 
well-rounded education, school counseling, and safe and 
supportive school climates. So we propose allowing States to 
award the grant competitively with a $50,000 floor.
    But again, I am open to conversation about both the level 
of funding and the methodology. We just want to make sure 
schools are able to have enough funding to make a difference.

        ABILITY OF RURAL SCHOOL DISTRICTS TO COMPETE FOR FUNDING

    Senator Cassidy. As regards competitive grants--just 30 
seconds more--that, if you will, is a little bit prejudice 
towards more urban districts. If you go to a rural district, 
they may not have the ability to apply for a grant. I just met 
with a gentleman from Winn Parish, Louisiana yesterday, and 
they are a rural community very much trying to keep it together 
as a population and their industry has evacuated. So when you 
put in a rule like that, I will just say that there is a 
certain prejudice against those smaller districts.
    Dr. King. We have tried in our competitive grants at the 
Department to include a rural priority, and so you see that 
play out, for example, in the program that now would be the 
Education Innovation and Research Program. Twenty-six percent 
of the dollars are going to rural communities because of the 
rural priority in that grant program. States, if they chose 
this option of awarding the grants competitively under Title 
IV, could also include a rural priority or a set-aside. So 
there could be different approaches on distribution, and we are 
certainly open to talking about that.
    Senator Cassidy. I yield back. Thank you.
    Senator Blunt. Senator Reed.

                           LITERACY PROGRAMS

    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Secretary King, for being here today.
    Because of the great leadership of Senator Alexander and 
Senator Murray, we passed the Every Student Succeeds Act. Thank 
you very much. Part of that was the innovative approaches to 
the Literacy grant program, which I am very pleased to see.
    Can you give us an idea of how the Department is going to 
provide the guidance and the technical assistance to encourage 
and support States and the school districts to implement the 
school library provisions? We talked yesterday about the 
criticality of school libraries.
    Dr. King. Yes. We are excited about both the Comprehensive 
Literacy Development Grant program and the Innovative 
Approaches Literacy program, and we look forward to running 
those grant competitions this year for new awardees under both. 
We are trying to build on lessons learned from prior grantees 
and from our Education Innovation and Research grantees. I am 
certainly happy to follow up with you or your staff as that 
process moves forward.
    Senator Reed. I would very much appreciate that. Again, as 
we talked, school libraries are such a multiplier in terms of 
their benefits not just to the students but the community. And 
then when you link them to public libraries and you link them 
to university libraries that might be in your thought process 
also.
    Dr. King. Absolutely. As we talked about, I am a very 
strong supporter of school libraries and have seen firsthand as 
a student, as a parent, and as a teacher the benefits that 
school libraries have.

                           STUDENT LOAN DEBT

    Senator Reed. Now, shifting to the issue of higher 
education, this is an issue that we all have spent a lot of 
time trying to deal with the huge overhang of debt. One 
approach that I have talked to my colleagues about for several 
years now has been forcing the institutions and the lenders to 
put skin in the game, to actually have a monetary interest in 
seeing that students do not over-borrow, that students are 
prepared for real work and get real jobs. And it seems there is 
a very cost-effective and efficient way to do it. It is an 
incentivization structure that would operate almost 
automatically. This is a real different process than check off 
the boxes and you are fine.
    I would like to work with you to establish this type of 
requirement in the student loan programs if you could do it 
administratively. We have legislative proposals. But I think 
there is not just one solution. There are many solutions. But 
this could be a big part of dealing with the issue.

        INCENTIVES TO INSTITUTIONS WITH STRONG COMPLETION RATES

    Dr. King. Absolutely. Eager to work with you on this. I 
think the current incentive structure really rewards 
enrollment, not completion. And we have got to shift that. The 
President proposes in the budget an incentive fund that would 
reward institutions with strong completion rates for Pell-
eligible students. But we are open to working with you and the 
committee on different strategies to achieve skin in the game.
    Senator Reed. Again, a complex subject, but my sense from a 
macro perspective is there is sort of a 40 percent threshold. 
If you go past that, you are out of the program. But it easily 
managed I think or it is managed. It has to be and I think 
several years in a row. And I would think if you could look at 
your regulations even, if that could be tightened up because as 
it exists today, there is really no incentive to ensure 
students can finish, ensure they take courses that are 
adequate, ensure that they get the right advice about 
borrowing. And as I said on the phone, it is eerily reminiscent 
of the mortgage crisis where nobody had any incentive except to 
sign the papers and take the money and run. So I would hope we 
could work together on that.
    Dr. King. Yes, and we would like to use every tool that we 
have available under current law to try and ensure 
accountability for higher education institutions, but also 
would look forward to working with you and others on the 
committee on the budget priorities that might incentivize 
institutions to focus on completion and ideally working with 
Congress on a reauthorization of the Higher Education Act.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Reed.
    Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman, Ranking Member 
Murray.
    Thank you, Dr. King, for your testimony today.

                         TITLE IV BLOCK GRANTS

    I understand during the time I needed to step out that you 
received a number of questions about the level of proposed 
funding for the new Student Support and Academic Enrichment 
Grant under Title IV. I am not going to ask you to repeat your 
answers. But I wanted to add my voice to those who expressed 
strong concern about the very low level of funding proposed.
    This grant program provides States and school districts 
with the flexibility to invest in a wide range of programs, 
things like educational technology, physical education, school 
counseling, foreign language arts, arts, advanced placement.
    And Congress authorized--I also serve on the HELP 
Committee. So I am very much focused on adequate funding there. 
We authorized $1.65 billion. Your testimony indicated that the 
administration's request, the Department's request, reflects 
the very difficult choices that you had to make, given the 
caps. However, you have given further explanation.
    I just want to state and underscore how extremely important 
I believe this program is. And I do not think we will 
successfully achieve the intent of the Congress of the United 
States at the current funding level. So I look forward to 
working with my chairman and ranking member on this very high 
priority issue.

                       AMERICA'S COLLEGE PROMISE

    I want to move now to the budget request for America's 
College Promise. I know you have also been asked questions 
about that. It is a commitment to making 2 years of community 
or technical college tuition free for eligible students while 
also, and importantly, incentivizing educational reforms that I 
think will improve student outcomes.
    As you know well, I am proud to be the lead sponsor in the 
United States Senate of the bill, America's College Promise.
    So some talk about the cost of this plan, but I really 
think that it is a crucial investment that both increases 
access to higher education and prepares the workforce of the 
future.
    I would like you to address for a moment what the 
Department sees, what you see as the economic benefits of the 
legislation and how it would help us ensure that we have the 
workforces that our businesses are demanding, that our 
employers are demanding.
    Dr. King. Thanks. Very grateful for your leadership on 
America's College Promise.
    We think that students having access to 2 years of 
community college will do a few things. One is it will make 
clear to all students that college is accessible to them. Too 
many students today think college is unavailable to them. Being 
able to communicate clearly that if you work hard, if you are 
responsible, you will be able to get 2 years of community 
college for free I think it is a powerful message to young 
people about their future.
    Two, we know that community colleges are a key economic 
driver throughout the country. They are often the place where 
first generation college students get their first access to 
higher education and pathway to work. They are often very 
strong partners to employers in providing job training and job 
skills for their future workforce. And they are a source of 
what some people would call stackable credentials, places where 
you might go get some initial credits towards job training, 
then come back, get your associate's degree, then come back, 
get some additional training, and then head on to a 4-year 
program. They are a linchpin, we think, to the ladder of 
opportunity, that is, the American dream. So we think America's 
College Promise should not be viewed as an expense but rather 
as an investment.
    Senator Baldwin. I appreciate those comments. When we spoke 
earlier, I noted that there are several community colleges and 
technical colleges in the State of Wisconsin that are 
endeavoring to make a college promise to students in their 
area, even without this legislation. We know several States, 
Tennessee and Oregon, have taken steps in that direction.
    Of course, I restate my invitation for you to come back and 
join us at one of these Wisconsin campuses. I am going to be 
doing so tomorrow in an attempt to urge the first group 
eligible to fill out their FAFSA (Free Application for Federal 
Student Aid) by March 15th in order to be eligible for the 
first year of one of those programs.

                     CAREER AND TECHNICAL EDUCATION

    Let me just conclude by taking a moment to note that the 
budget request includes funding for two other major priorities 
of mine and I know others on this committee, the Carl D. 
Perkins CTE (Career and Technical Education) Act and Next 
Generation High Schools. I am co-chair of the bipartisan CTE 
Caucus in the Senate, and I am really pleased to see the 
request build on our commitment to Perkins CTE. I also note 
that the budget seeks $80 million for the Next Generation High 
Schools program, an idea that I championed during the ESSA 
process.
    So these are both programs that can help keep our high 
school students better--help them better obtain the education 
and skills that they need to succeed in college and a career 
beyond. And I look forward to working with fellow members of 
the committee on those issues.
    Thank you.
    Senator Blunt. Thank you, Senator Baldwin.
    We have a little time for a few more questions I think.

                           COMMUNITY COLLEGES

    On the community college issue, I think community colleges 
are the best buy in higher education. We have a robust system 
in our State. There is no community college in Missouri that if 
you qualify for full Pell, you cannot pay all the tuition, all 
the fees, all the books, and have some money left over. And I 
do not think we have any student outside of the reasonable 
reach of a community college now in our State. So just for the 
record, on that needs-based Pell, we have community college 
paid for now if you meet the needs-based requirement to have it 
paid for.

                         TITLE IV BLOCK GRANTS

    On the Title IV issue, I want to go a different direction 
with Title IV. But Title IV--the authorized money in the bill 
we just passed is a 500 percent increase over what we have been 
spending. You asked for essentially double what we have been 
spending. So I just want to be sure that we are not suggesting 
here that somehow anybody is stepping back from the traditional 
commitment to programs now funded by Title IV. Last year it was 
$278 million, which is about what it was the year before, a 
little more I think than the year before that. You are asking 
for $500 million. You know, the authorizers did approve in the 
ESSA bill $1.65 billion, but you are still asking for twice as 
much as we have been spending on those areas.

                           GAINFUL EMPLOYMENT

    On gainful employment, I think actually Title IV is a good 
backdrop to talk about gainful employment. Arts education, 
physical education, music education, all are an important part 
of education. They are not necessarily the things that add the 
most to a paycheck. Now, I am not offended by a significant 
number of art history majors in the country today. All of them 
might have made more money if they would have decided to become 
business finance majors or brain surgeons. But then we would 
have no art history majors.
    I just am concerned, John, that this gainful employment 
concept, a phrase that has been in the law for 50 years--and 
has never been fully defined--is too focused on the amount of 
money a person makes versus their loan versus what they have 
decided to do. My belief is if you apply the gainful employment 
standard in the direction it is headed to the not-for-profits--
and I was a university president for 4 years. Senator Alexander 
was a university president. The not-for-profits would not stack 
up all that well either when you look at all their students.
    Now, if you look at whether people are current on their 
loan or not, no matter how much they make, there are other 
factors here that I think we should think about. And I am very 
concerned that we are monetizing the value of higher education 
in a way that has not been in the traditions of the country. 
And I would be glad to hear your response.
    Dr. King. Look, I appreciate the concern. We do not want to 
send a signal to students that pursuing studying the humanities 
is a bad thing. Lots of great, creative, successful people 
began their studies in areas that were not necessarily work-
related.
    That said, ``gainful'' is intended to apply to our for-
profit colleges and our career preparation programs at other 
institutions. And to say if the promise on which the student is 
enrolling is that this experience is going to lead to gainful 
employment, we have got to make sure that that promise is 
delivered. And we know that there are institutions where 
students are told, come to this program, when you leave this 
program, you are going to get a great job. But then hardly 
anyone gets a good job at the end of that program. And so we 
see ``gainful'' as a way to make sure that we are protecting 
the consumers and the taxpayers as well because we want to make 
sure that taxpayers are getting the benefit of the investment 
in those educational services.
    Senator Blunt. Well, people that are the first person in 
their family to go to college often have a different concept of 
what is available for them to do, what they decide to major in. 
I think at some point in fairness you have to look at higher 
education generally. You cannot just decide that the for-
profits must be there for a bad purpose and the not-for-profits 
do not need standards. We will talk more about that later.
    Senator Murray.

                               PRESCHOOL

    Senator Murray. Dr. King, as you know, the bipartisan Every 
Student Succeeds Act marks the first time that our Nation's 
primary education law authorized dedicated funding to improve 
access to preschool for children from low-income and 
disadvantaged families.
    Although the program is now going to be funded at HHS 
(Health and Human Services), the program will be jointly 
administered by HHS and the Department of Education. The 
Department of Education has done great work, in collaboration 
with HHS, to help our States develop and sustain strong early 
learning systems. I wanted to ask you today how do you plan to 
work with HHS to leverage your Department's expertise in this 
arena so we can make sure we are getting high-quality early 
learning.
    Dr. King. Thanks. I appreciate the question.
    You know, we have worked very closely with HHS on 
implementation of the Race to the Top Early Learning Challenge 
and then the Preschool Development Grant program. So we have a 
good track record of close collaboration.
    We have already been talking with them about execution of 
the new program under ESSA and think we will be able to work 
together very productively, ensure we are providing good 
technical assistance to States and districts and providers and 
that we are lifting up best practices because we know that the 
return on investment for high-quality pre-K is at eight to one, 
nine to one, but we have to make sure it is high quality. And 
so we will be focused on technical assistance, on quality 
issues, and also on transition issues. We have to make sure 
that students are able to transition smoothly from preschool 
into the K-12 system.
    Senator Murray. I really appreciate that. And anything I 
can do to be helpful, let me know.
    Dr. King. Thank you.

                         CAMPUS SEXUAL VIOLENCE

    Senator Murray. I wanted to ask you about the Office for 
Civil Rights. I have been impressed with this administration's 
work over the years to protect civil rights, including 
promoting educational opportunities for students of color, 
women and girls, students with disabilities, LGBT students. And 
I look forward to continuing to work with you on those issues.
    But there is one specific issue I want to raise here today. 
Campus sexual assault and violence is a growing national 
crisis. Depending on the survey that you look at, we know that 
at least one in five women are being sexually assaulted while 
on college campus, and that is the lowest of the estimates out 
there. That is really appalling and it is unacceptable. And I 
hear over and over again from students, administrators, and 
survivor groups and schools and others about the important work 
the Office for Civil Rights does to enforce Title IX.
    The Office for Civil Rights has taken critical action to 
ensure that our college campuses have the tools and the 
resources necessary to comply with Title IX and keep our 
campuses safe.
    Can you talk with us today about the importance of having 
safe campuses and your Department's commitment to addressing 
this?
    Dr. King. You know, I think it has to be a top priority for 
our country to tackle this. When you look at the impact on the 
victims of sexual assault, whether it is female victims or male 
victims, it is devastating, a devastating life impact, and it 
makes campuses unsafe places for everyone.
    Our goal at the Office for Civil Rights has been to ensure 
that institutions are doing all they can to protect students. 
We want them to respect due process. And we have tried in our 
guidance to make clear what it will take for higher education 
institutions to comply with the law and regulations, and also 
we have tried to establish for them examples of best practices 
from around the country. You know, there was a task force on 
sexual assault and sexual violence that held dozens of 
meetings, gathered input from around the country on these 
issues.
    We think we have made significant progress. The 
institutions that have reached agreements with our Office for 
Civil Rights have made their policies and practices better, and 
students are safer as a result. And we want to continue to do 
that work.
    We worry that capacity is a challenge in our Office for 
Civil Rights. We had around 7,000 complaints in 2010 because we 
have shown that we are going to enforce civil rights. We expect 
we will probably have 11,000 complaints this year.
    Senator Murray. Yes. I understand the workload has 
increased 45 percent since 2010?
    Dr. King. That is right.
    Senator Murray. No additional resources? And I am worried 
about that because the number of cases that remain unresolved 
for more than 180 days has increased from 315 at the end of 
fiscal year 2009 to 1,311 at the end of fiscal year 2015. That 
is a fourfold increase in the number of cases that are 
unresolved. And as you just referred to, an unresolved case 
means the student that drops out, does not finish college--you 
know, it has a lifetime impact. And our students and our 
families really rely on the Office for Civil Rights for 
enforcement. So I am assuming you are as concerned as I am 
about that delay in justice.
    Dr. King. Absolutely, and that is why we have asked for an 
increase in funding for the Department's budget so that we can 
add staff in the Office for Civil Rights.
    Senator Murray. Thank you very much. Appreciate it.
    Senator Blunt. Senator Alexander.

                  OVERREACH VIA DEAR COLLEAGUE LETTERS

    Senator Alexander. Dr. King, the Kirwan-Zeppos task force 
report on higher education said that our 6,000 colleges and 
universities get on the average of one communication each 
workday from the U.S. Department of Education, whether it is a 
guidance or a memo or news about a new regulation. Is it 
correct that if that communication is simply a ``Dear 
Colleague'' letter, that it is not legally binding?
    Dr. King. That is right. The institutions are responsible 
to the law and the regulations. The guidance is intended to 
share our interpretation of the law and regulations.
    Senator Alexander. And if it is a guidance, it is not 
legally binding.
    Dr. King. That is right. Now, the institution, of course, 
needs to be aware that we are sharing our interpretation of the 
law and regulations which are binding.
    Senator Alexander. What?
    Dr. King. That we are sharing our interpretation of the law 
and regulations, that we are communicating through the 
guidance----
    Senator Alexander. Well, now, let us think about that a 
minute. So you are making the law?
    Dr. King. No. We are providing our interpretation and how 
we interpret what their responsibility is under the law and 
regulations.
    Senator Alexander. I had a visit with Mr. Donovan, the head 
of the Office of Management and Budget, and he was very clear 
that it was the Obama administration's policy that guidances 
and ``Dear Colleague'' letters are what you just said, not 
legally binding, and that when something is to be legally 
binding, it needs either to be a law or it needs to be a 
regulation that goes through the process of notice and all 
that.
    Dr. King. That is right.
    Senator Alexander. Then who is going to tell Ms. Lhamon 
that, the Assistant Secretary who is in charge of Title IX? 
Because when I asked at a hearing, do you expect colleges to 
comply with your guidance, she says, yes, sir, we do.
    Dr. King. I think what she intended to convey is the point 
that I was making, that the guidance shares our interpretation 
of the law and regulations.
    Senator Alexander. Yes, but if I am at a small college out 
in Texas and I see that, I think she is making the law. And I 
do not dare not do what you want. And I think that goes back to 
Senator Lankford's questions about the 2011 guidance about 
these very difficult instances of alleged sexual assault, which 
are for every campus administrator probably the most difficult 
and terrible problem to deal with, as well as for the alleged 
victim and in some cases the alleged perpetrator.
    And in 2011, the Department put out a guidance and 
basically said equitable resolution cannot mean either clear 
and convincing evidence or preponderance of the evidence. It 
has got to mean preponderance of the evidence. So that would 
mean to me that the U.S. Department of Education could today 
initiate an action and say to a school you are violating Title 
IX if you use the standard of clear and convincing evidence. Is 
that correct?

   GUIDANCE CONVEYS DEPARTMENT INTERPRETATION OF LAW AND REGULATIONS

    Dr. King. Let me first reassure you that in our 
communication with Senator Lankford, Assistant Secretary Lhamon 
made very clear that we do not believe the guidance has the 
force of law. The guidance is intended to convey our 
interpretation of the law and regulations.
    We do believe that equitable resolution means preponderance 
of the evidence.
    Senator Alexander. Well, who gave you the right to believe 
that? I mean, we were all elected, and that is not easy to do 
these days, or maybe even before these days. And that is an 
enormously important decision to make in the lives of students 
and universities.
    So the Congress specifically said equitable resolution and 
left that to university administrators and boards and others to 
resolve. And you have come along and not in a regulation but 
just in a guidance, which is not binding, you have changed the 
law for 6,000 colleges and universities. And when you say 
preponderance of the evidence, that introduces a whole series 
of concerns about due process, which you also have not 
addressed and which, if addressed, we should be doing, not you.
    Dr. King. As I indicated to Senator Lankford, the 
interpretation of equitable resolution means preponderance of 
the evidence is longstanding.
    Senator Alexander. Where is that written? Where is that 
written?
    Dr. King. That has been the longstanding policy of the 
Department.
    Senator Alexander. No, it has not. In 2011, a university 
could use either clear and convincing evidence or preponderance 
of the evidence. In 2011, you changed that by guidance and now 
you are, in effect, making every university do that because 
they might fear an action from your Department based upon that 
legislating by the Department.
    Dr. King. We believe the guidance merely clarified what had 
been the longstanding interpretation. When the Department 
investigated a complaint on a Title IX issue, the Department's 
approach, predating this administration, was to evaluate 
equitable resolution through the preponderance of the evidence.
    Senator Alexander. But do you not believe that if Congress 
had wanted to make that important a decision about the level of 
the evidence required, that Congress would have written that 
out. You know, we can spell. We can write. We are very clear in 
what we seek to do. So I think I would strongly disagree with 
your interpretation of that.
    My time is up, Mr. Chairman.
    Senator Blunt. Senator Murray.
    Senator Murray. Mr. Chairman, I would like to submit some 
of my questions for the record.
    Again, Dr. King, I really do appreciate the work you are 
doing on these many issues.
    And, Mr. Skelly, we wish you the best.
    Senator Blunt. And, Mr. Skelly, do you have anything you 
would like to say?
    Mr. Skelly. It has been a great run. It has been an honor 
and privilege to work for the U.S. Department of Education. We 
have done many good things for many students and teachers. I am 
glad to work with you and hope we did a good job.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. Well, thank you for your service.
    The record will stay open for 1 week for additional 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Roy Blunt
                        mental health in schools
    Question. The Department of Education and the Substance Abuse and 
Mental Health Services Administration (SAMHSA) have been working 
together for a number of years to improve the capacity of State 
educational agencies, local educational agencies, and schools to 
address the mental health needs of students exposed to violence and 
other traumatic events. What have we learned from the activities and 
the partnership with SAMHSA about the capacity of schools to address 
the mental health needs of students?
    Answer. We believe that the capacity of school districts and 
schools to use instructional staff to provide effective low-intensity 
mental health services is increasing, in part because school districts 
and schools are using more evidence-based programs that help staff 
recognize the early warning signs of mental health issues. However, 
districts and schools generally do not have the capacity to provide 
intensive individual mental health services to the roughly 5 percent of 
students who generate 70 percent of all disciplinary referrals. To fill 
this gap, school districts and schools need to improve their ability to 
access the various Federal, State, and local mental health funding 
streams that can support the provision of these services both in the 
school and in the community. In addition, many school districts and 
schools struggle to find the resources needed to support a sufficient 
number of mental health professionals in schools, such as school 
counselors and social workers. The President's request for first-time 
funding of the Title IV, Part A Student Support and Academic Enrichment 
Grants would help meet this need.
  partnership between the departments of education and the substance 
            abuse and mental health services administration
    Question. The fiscal year 2016 Omnibus included new funding at the 
Department of Education and SAMHSA (Substance Abuse and Mental Health 
Services Administration) for school-based programs to specifically 
address the behavioral and mental health needs of students in 
communities experiencing significant episodes of civil unrest, such as 
in Ferguson, Missouri. How does the Department plan to work with SAMHSA 
in this effort, and improve access to school-based mental health 
services for students in those communities?
    Answer. We greatly appreciate the additional resources provided by 
Congress to help students who may be struggling with the impact of 
events like those in Ferguson and Baltimore. We currently are engaged 
in discussions with SAMHSA about how best to coordinate our efforts to 
improve access to school-based mental health services while also 
providing other supports for students in such communities. The 
Department also is considering how to provide technical assistance 
related to the use of existing formula grant funds, such as Title I 
Grants to Local Educational Agencies, as well as possible funding under 
the newly authorized Title IV, Part A Student Support and Academic 
Enrichment Grant program, to help affected students overcome the 
potentially negative impact of civil unrest on educational outcomes. We 
anticipate making awards in time for projects to begin providing 
services in the 2016-2017 school year.
                         student loan servicing
    Question. Under current common performance metrics established by 
the Department, some servicers perform significantly better than 
others. Why shouldn't the Department allocate more loans to servicers 
who have demonstrated they can both manage their loans better and serve 
student borrowers better?
    Answer. Under the Department's existing performance-based servicing 
contracts, new borrower accounts have always been allocated based on 
servicers' success in helping borrowers avoid delinquency and default, 
as well as on their scores on customer satisfaction surveys. Because we 
believe that the significant variation in the composition of the loan 
portfolios between the Title IV Additional Servicers (TIVAS) and Not-
for-Profit (NFP) servicers prevents an optimal comparison of their 
performance using the existing contractually established common 
metrics, prior to March 1, 2016, each group of servicers competed 
within separate allocation pools. Within each pool, accounts were 
allocated among servicers based on their performance.
    In the recently enacted Consolidated Appropriations Act of 2016, 
Congress included a provision requiring that the Department ``no later 
than March 1, 2016, allocate new student loan borrower accounts to 
eligible student loan servicers on the basis of their performance 
compared to all loan servicers utilizing established common metrics, 
and on the basis of the capacity of each servicer to process new and 
existing accounts.'' Currently, the TIVAS and NFP servicer contracts 
contain provisions that govern the allocation of new loan volume on the 
basis of the common performance metrics established in the contracts. 
We interpret this statutory requirement and deadline to prohibit the 
Department from using the contractually established common metrics as 
we have been, that is, by comparing the performance of the TIVAS and 
NFP servicers separately, and, instead, to require the Department to 
use the established common metrics to compare, by March 1, 2016, 
servicer performance among ``all loan servicers,'' without regard to 
their status as a TIVAS or NFP servicer. Accordingly, new allocation 
percentages were implemented for all servicers on March 1, 2016; these 
allocations reflect the results of a comparison of performance scores 
across all servicers using established metrics. Details regarding the 
March 1, 2016, allocation are available at: https://studentaid.ed.gov/
sa/about/data-center/business-info/contracts/loan-servicing/servicer-
performance#12312015.
    Because we continue to believe that variation in the composition of 
the TIVAS and NFP portfolios prevents an optimal comparison of their 
performance, we plan to develop and implement adjustment factors or new 
common metrics not later than June 30, 2016. Those metrics will account 
for variations in the composition of the TIVAS' and NFPs' loan 
portfolios.
                  loan portfolios of service providers
    Question. How specifically do differences in the loan portfolios of 
the different servicers impact how they perform on the common metrics 
established by the Department?
    Answer. The portfolios managed by the NFP servicers are 
overwhelmingly made up of accounts received from the Direct Loan 
Servicing Center in 2011-2012. These loans were already in repayment 
and current at the time they were selected for transfer to the NFPs. As 
a result, the loans are more stable and mature than the portfolios of 
the other Federal loan servicers. The TIVAS portfolios have high 
volumes of new borrowers who are more likely to enter and exit 
delinquency. These four Federal loan servicers also service Federal 
Family Education Loan (FFEL) Program loans purchased through the 
Ensuring Continued Access to Student Loans Act of 2008 (ECASLA), Public 
Law 110-227 and loans of all statuses received from the Direct Loan 
Servicing Center. Although the NFP members of the Federal loan servicer 
team began receiving new borrowers in early 2015, most of those loans 
are still in an in-school status and therefore do not require payments 
to be made at this time.
                   current common performance metrics
    Question. If, as the Department believes, the current common 
metrics cannot be used to compare all servicers, why didn't the 
Department account for differences in portfolios when they originally 
developed common metrics?
    Answer. The Department accounted for differences in portfolios by 
establishing separate allocation pools for the TIVAS and NFP servicers. 
This approach was no longer available with the enactment of the 
Consolidated Appropriations Act of 2016; as a result, we are now 
developing an alternative approach to address the portfolio variation.
                   adjustments to the current metrics
    Question. What specific adjustments to the current metrics, or new 
metrics, is the Department considering to account for differences in 
portfolios, and how and when does the Department plan to implement 
them?
    Answer. We have not completed the process of determining what 
adjustments or changes to the current metrics will be made. As we 
continue developing these adjustments or changes, we are consulting 
with all Federal loan servicers for their input on how best to control 
for such variation and how to optimally compare their performance. We 
will post publicly our calculations and the results of both our initial 
and subsequent allocations, as has been our standard practice with 
previous results and allocations.
                       current allocation period
    Question. Why did the Department shorten the current allocation 
period from 6 months to 4 months, and when was this decision made?
    Answer. The statutory language related to servicing allocations 
requires the Department to take into consideration the capacity of each 
servicer to manage and process new and existing borrower accounts. We 
have experience working with each of our servicers and are already 
familiar with their systems and capabilities. Regardless, we have 
requested, received, and conducted an initial review of capacity plans 
from all of our servicers to assess the reasonability and risk of each 
servicer's staffing, training, system, and other resource planning. 
Based on our experience and our initial assessment of the capacity 
plans, we are confident that all of our servicers can manage and 
process projected borrower account allocations for the next few months, 
while the volume of new accounts is relatively low. While we continue 
the process of completing and documenting our capacity assessment, we 
will monitor each servicer's performance closely and can modify or 
discontinue allocations on short notice if any issues arise. Our plan 
is to complete and document the capacity review, as well as any 
adjustments or changes to the metrics, by June 30, 2016. The current 
allocation period was shortened to allow us to reflect the results of 
these actions prior to the beginning of the new academic year on July 
1, 2016. This decision was made in February 2016 after it became 
apparent that we would need additional time beyond March 1, 2016, to 
complete our analyses and documentation.
             release of preliminary competition information
    Question. When does the Department plan to release preliminary 
competition information for the new student loan servicing contract? 
What requirements, if any, will the Department include for an 
organization to be eligible to compete for the new contract?
    Answer. We expect to post a request for proposals for new loan 
servicing contracts in the near future. Until that time, we cannot 
share information on the requirements or selection criteria as that 
information is procurement-sensitive.
         complexity of measuring the value of higher education
    Question. Given the complexity of measuring the value of higher 
education, why has the Department settled on one single metric student 
loan debt compared to earnings a year or 2 after completion--to 
determine if program prepares a student for gainful employment? Why not 
consider longer term earnings data? Why not consider whether a borrower 
is current on their loan payment, or any other measures?
    Answer. The Gainful Employment regulations measure whether a 
student is able to earn enough income to be able to pay back their 
loans after completion of a program. We believe the debt to earnings 
metric (D/E) is an appropriate approach to measure this. For a full 
discussion of the debt-to-earning metric and why the Department 
believes it is appropriate and our responses to the comments received, 
please see the final rule, which can be found at: https://
www.Federalregister.gov/articles/2014/10/31/2014-25594/program-
integrity-gainful-employment.
    The accountability framework of the regulations is based on 
discouraging institutions from saddling students with unmanageable 
amounts of debt and thus focuses on whether students who attend GE 
programs will be able to manage their debt. As we discussed in the 
NPRM, the gainful employment requirements are tied to Congress' 
historic concern that vocational and career training offered by 
programs for which students require loans should equip students to earn 
enough to repay their loans. Allowing students to borrow was expected 
to neither unduly burden the students nor pose ``a poor financial 
risk'' to taxpayers. In authorizing federally backed student lending, 
Congress considered expert assurances that vocational training would 
enable graduates to earn wages that would not pose a ``poor financial 
risk'' of default.
    Congress' decision in this area is supported by research that shows 
that high levels of debt and default on student loans can lead to 
negative consequence for borrowers. We believe that the D/E rates 
measure achieves the objectives of these regulations because it 
assesses earnings in the context of whether they are at a level that 
would allow borrowers to service their debt without serious risk of 
financial or emotional harm to students and loss to taxpayers. Our 
analyses indicate an association between ultimate repayment outcomes, 
including default, and D/E rates. Based on the best data available to 
the Department, graduates of programs with D/E rates above the passing 
thresholds have higher default rates and lower repayment rates than 
programs below the thresholds. Although many other factors may 
contribute to default outcomes, we believe high D/E rates are an 
important indicator of financial risk and possibility of default on 
student loans. In addition to addressing Congress' concern of ensuring 
that students' earnings would be adequate to manage their debt, 
research also indicates that debt-to-earnings is an effective indicator 
of unmanageable debt burden.
            department of education's report of student data
    Question. Colleges and universities submitted preliminary data 
required by this regulation to the Department in July. The Department 
planned to provide data back to schools a list of students who had 
completed the program in the covered years by the end of last year but 
has not done so yet. What is causing this delay at the Department? When 
is the first time that schools, and the public, will be able to see how 
programs perform under this regulation?
    Answer. Institutions were required to report retrospective data on 
their GE programs to the Department by July 2015 and for the most 
recently completed award year, by October 2015. There has been a delay 
in setting up the system for institutions to correct reported data. We 
expect to release completers lists in the next few months once we 
resolve any remaining issues with the correction and challenge system. 
We will continue to conduct pilot tests of our systems with several 
institutions in order to ensure that the completers list correction 
process runs as smoothly as possible for all institutions. We look 
forward to sharing the final rates with the public as soon as possible.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                        awarding research grants
    Question. In Mississippi, 91 percent of school districts are 
considered rural by the Department of Education, and they serve more 
than 50 percent of our students. However, a vast majority of your 
Department's research is conducted in urban and suburban communities. 
The Every Student Succeeds Act requires that schools implement 
evidence-based strategies to improve student outcomes. In awarding 
research grants, does the Department consider the geographic 
distribution of research projects and geographic disparities in 
education research funding? How does this budget ensure that funding is 
available to research institutions located in under-researched and 
underserved areas?
    Answer. Discretionary research grants are awarded on a competitive 
basis through a rigorous peer review process, and a large percentage of 
these awards are field-initiated. Funding opportunities are open to all 
eligible entities, regardless of geographic area. In addition, the 
budget invests significant funding in evidence-building programs, in 
particular the new Education Innovation and Research program, the 
successor to Investing in Innovation (i3). Over the past few years, the 
Department has placed a priority within i3 on supporting and evaluating 
innovative strategies to improve student outcomes in rural areas. As 
these strategies are evaluated, they will play a significant role in 
building a knowledge base of effective practices for rural schools.
    Much of the Department's research efforts happen through the 
Institute of Education Sciences (IES). IES research grant programs at 
the National Center for Education Research (NCER) and National Center 
for Special Education Research (NCSER) are highly competitive; only a 
small percentage of fundable applications receive awards. Like other 
grant-making offices of the Department, IES strives to increase the 
number and quality of discretionary grant applicants from traditionally 
underserved and underrepresented communities, including rural areas. 
For example, program officials conduct targeted outreach and widely 
distribute application packages to maximize diversity of applicant 
pools. Additionally, IES programs utilize a variety of strategies to 
help build capacity for institutions from traditionally underserved 
areas, including: conducting pre-application workshops and webinars to 
provide technical assistance to applicants from rural and other 
underserved areas that may be preparing proposals for research grants 
or other discretionary grant competitions that include research 
activities; highlighting research opportunities related to rural needs 
in notices announcing competitions; and providing targeted follow-up 
after peer review panel scoring to discuss individual application 
strengths and weaknesses and to identify ways for applicants to 
strengthen future submissions. One such program, the Regional Education 
Labs (RELs), partners with school districts, State educational 
agencies, and others to use data and research to improve academic 
outcomes for students, especially those in underserved areas.
    To further support institutions in under-researched and underserved 
areas, the Department has proposed funding for a number of longer-term 
strategies in this Budget: promoting postsecondary access and 
completion within community colleges, MSIs, HBCUs, and other post-
secondary institutions with high percentages of Pell recipients many of 
which are located in rural areas; supporting high quality, affordable 
education programs at all levels; conducting research, model 
demonstrations, and other activities to promote effective teaching 
practices in elementary schools including schools in rural areas. In 
addition, the Secretary supports the use of competitive preference 
priorities that award additional points to applications from eligible 
entities in rural areas, as well as those that address rural themes or 
establish partnerships with rural entities. Importantly, the 2017 
request also outlines investments in research specifically focused on 
improving rural education, including the evaluation of technologies to 
support teaching and learning in rural schools, and the development and 
evaluation of strategies to help rural high school students 
successfully transition to work or college.
                 equitable access to effective teachers
    Question. Across the Nation, equitable access to effective teachers 
remains an issue. Rural schools, especially, often struggle to recruit 
and retain talented teachers and school leaders. The Transition-to-
Teaching program provided for scholarships for teacher preparation 
programs to meet the needs of schools with demonstrated teacher 
shortages. In Mississippi, Transition-to-Teaching grants have led to 
the successful licensure of more than 200 of new teachers in the past 5 
years, addressing the needs of rural schools. The proposed budget 
includes funding for loan forgiveness through Teacher Education 
Assistance for College and Higher Education (TEACH) grants but does not 
explicitly create scholarship programs to serve as incentives for new 
teachers. Please discuss how you envision this Committee should address 
inequitable distribution of resources to support effective teachers, 
particularly in rural areas.
    Answer. The re-authorized ESEA does not include continued authority 
for the Transition to Teaching program, but does provide increased 
flexibility in the use of Federal formula grant funds by State and 
local educational agencies (LEAs) to support activities that most meet 
their needs. For example, our request includes $2.25 billion for the 
Title II, Part A Supporting Effective Instruction State Grants program, 
which allows States to use funds to improve equitable access to 
effective teachers and to carry out programs that establish, expand, or 
improve alternative routes for State certification of teachers. Most 
Title II, Part A funds are distributed to LEAs by formula, but States 
have discretion to use up to 8 percent of their allocations for 
activities to improve access to effective teaching and school 
leadership, and to target such activities to areas with the greatest 
needs, including rural districts and schools.
    The Administration is committed to ensuring that all students, 
especially those in high-need schools, have access to effective 
teachers. To meet this commitment, we must attract more talented people 
into the teaching profession and reward them for the hard, daily work 
of improving student learning outcomes in our lowest-performing 
schools. The budget proposes to expand and increase teacher loan 
forgiveness, starting in 2021. This proposal would simplify existing 
postsecondary assistance available to teachers, such as TEACH grants 
and the current teacher loan forgiveness program, by consolidating them 
into a single, more generous loan forgiveness program, incentivizing 
more individuals to teach in our neediest schools and encouraging them 
to stay on the job.
    Our request also includes $30 million, a $13.6 million increase 
from 2016, for the reauthorized School Leader Recruitment and Support 
program, which would help improve the recruitment and retention of 
principals and other school leaders in high-need schools, i.e., those 
with large concentrations of students in poverty. These funds will be 
competitively awarded to eligible entities, which include LEAs with 
high-need schools, and the Secretary is required to ensure that, to the 
extent practicable, grants are distributed among eligible entities that 
will serve geographically diverse areas, including urban, suburban, and 
rural areas.
    Finally, we have requested $10 million for the STEM Master Teacher 
Corps program, which would provide funds to recognize, reward, attract, 
and retain outstanding science, technology, engineering, and 
mathematics teachers, particularly in high-need and rural schools.
    Support for these programs will help ensure that schools, including 
schools in rural areas, have the effective teachers and school leaders 
needed to improve student achievement.
   lessons learned implementing comprehensive programs in rural areas
    Question. The Promise Neighborhoods program attempts to transform 
education by encouraging collaboration among schools and other 
community services to address education throughout students' 
matriculation. A few of the Promise Neighborhood grants, including one 
in Mississippi, have been located in rural communities. The fiscal year 
2016 Appropriations Bill included a $15 million increase for the 
Promise Neighborhoods program. The Department's budget requests another 
$55 million increase on top of that. What have you learned about 
implementing comprehensive, coordinated programs in rural communities, 
and what can our Committee do to sustain the progress they have made?
    Answer. The Administration recognizes that rural communities face 
unique challenges. In order to ensure that every child has an equal 
chance at succeeding academically and in life, we think it is crucial 
that students and their families in rural communities receive 
appropriate support. Over the past few years, Department staff has 
visited rural Promise Neighborhood grantees, including one grantee in 
Indianola, Mississippi, to learn more about the specific obstacles they 
face. Through these experiences we have learned a great deal about the 
challenges of implementing place-based solutions in rural settings, 
including the dispersal of resources across long distances, limited 
access to essential services, and fewer ``anchor institutions'' that 
can serve as hubs for supporting the myriad needs of families in rural 
communities, particularly those living in poverty.
    We appreciate your support for and commitment to this program, and 
note that one common challenge all Promise Neighborhoods grantees face 
is how to sustain their good work after the period of Federal funding 
ends. While we endeavor to support each grantee throughout its project, 
we think that Promise Neighborhoods grantees must cultivate strong 
relationships with their partners in order to sustain the impact their 
work has on the lives of children and families in their communities. 
The Promise Neighborhoods program provides seed money to its grantees 
with the expectation that each project will ultimately be able to 
sustain itself beyond the life of the Federal award. The authorization 
for Promise Neighborhoods in the Every Student Succeeds Act included a 
provision helpful to communities, and particularly rural communities, 
which may face challenges in finding high-quality partners to help them 
sustain their work. Under the new law, which goes into effect for this 
program on October 1, 2016, the Department has the discretion to extend 
by 2 years the life of Promise Neighborhoods projects, when 
appropriate, allowing the grantees more time and funding to get on 
their feet. In addition, current grantees, including those that will be 
awarded in fiscal year 2016, can request no-cost extensions at the end 
of their projects. While we cannot provide current grantees with 
additional funding, we find that, due to project implementation 
challenges that can arise naturally during the life of a Federal grant, 
many grantees would find value in having additional time to spend their 
existing funds.
            assurance that programs serve rural communities
    Question. What is the Department doing to ensure this program 
reaches rural communities, and addresses the unique challenges facing 
children and families living in rural communities?
    Answer. Since its creation, the Promise Neighborhoods program has 
considered carefully the needs of rural communities. Through Promise 
Neighborhoods grant competitions held in 2010, 2011, and 2012 all of 
which specifically incentivized rural applicants the Department has 
ensured that applicants in rural areas can successfully compete for 
Federal funding. To date, the Department has awarded eight Promise 
Neighborhoods grants to six rural communities (two communities 
Indianola, Mississippi and Berea, Kentucky have received both a 
planning and implementation grant). Through these investments, Promise 
Neighborhoods is creating comprehensive models to address the academic 
and developmental outcomes for children, youth, and their families in 
rural communities. For example, the Delta Promise Neighborhood in 
Indianola has worked to coordinate and align the efforts of 28 
providers in early childhood education, resulting in more high-quality 
early childhood opportunities. One such effort encourages early 
literacy by mailing free books to more than 900 children per month and 
teaching families the importance of reading to children. In addition, 
the grantee has worked with key public health and economic development 
partners to better coordinate the delivery of services such as prenatal 
care, housing support, and financial literacy training.
    Looking ahead, under ESSA, the Promise Neighborhoods and Full-
service Community Schools programs will use at least 15 percent of 
available funds to support rural communities. The Administration's 
requested increase for the Promise Neighborhoods program in 2017 would 
help to ensure that this 15 percent set-aside has maximum impact.
                    impact of ready-to-learn program
    Question. In this day and age, children are spending more time 
watching television and using digital media outside of school. 
Educational opportunities for students outside the classroom are 
increasingly important. It is my understanding that the Ready-to-Learn 
program's grantees have been able to demonstrate positive and 
statistically significant gains in math or literacy skills for children 
who access their educational material. Can you speak to the positive 
impact that effective educational programming can have on student 
academic achievement?
    Answer. Children, particularly children in high-poverty settings, 
spend large amounts of time watching television and using digital 
media. Researchers in many fields have looked carefully at whether and 
how television viewing might contribute to the ``literacy gap,'' and, 
conversely, whether and how television and digital media can be used as 
a tool to promote literacy development. Recent research suggests that 
television and transmedia can have a positive impact on children's 
literacy and learning, provided certain conditions are in place. 
Producers and developers must understand how children learn, and how 
programming content can facilitate such learning. Individual episodes 
should reflect what research tells us about effective educational 
programming. For example, programs that succeed in helping children 
learn tend to help children understand how to watch and make sense of 
what they see. Such programs also develop familiarity by using 
recurring characters and situations, repeat key tasks and information, 
link knowledge to what children already know, and are carefully paced 
to keep children cognitively engaged throughout each episode.
    Early childhood, preschool, and elementary school curricula 
typically emphasize basic skills in math and reading. Ready-to-Learn 
(RTL) content is specifically designed to reinforce young children's 
literacy skills, emphasizing letter recognition, vocabulary, fluency, 
rhyming, and comprehension. Through targeted outreach and marketing 
campaigns, grantees actively reach out to parents and caregivers, 
particularly in high-poverty rural and urban communities, to encourage 
the use of RTL programming to support the skills that children need to 
succeed in school.
    The Department is very interested in learning about the positive 
impact that effective educational programming can have on student 
academic achievement. Therefore, one of the Department's performance 
measures for the RTL program looks at the percentage of summative 
experimental or quasi-experimental research studies that demonstrate 
positive and statistically significant gains in math or literacy skills 
when RTL transmedia properties are compared to similar non-RTL-funded 
digital properties or to other more traditional educational materials. 
The results have been overwhelmingly positive for the 2010 cohort of 
grantees. Of the nine total studies that have been submitted, eight (or 
89 percent) found that children using RTL-produced products 
demonstrated statistically significant gains when compared to similar, 
non-RTL-produced products.
                career and technical education teachers
    Question. Secretary King has brought to my attention the importance 
of reauthorizing the Carl D. Perkins Career and Technical Education Act 
of 2006. Career and Technical Education (CTE) programs in secondary 
classrooms are only as good as the quality of the teachers who lead 
them. How do teacher education provisions in the Department's proposed 
budget provide support or incentives for individuals to become CTE 
teachers?
    Answer. It is imperative that we invest in innovative ways to 
recruit, develop and retain the teachers our schools and our students 
need. Our Perkins reauthorization proposal would strengthen provisions 
for CTE teacher and leader preparation and would require States to 
include in their plans a description of how they will provide pre-
service and in-service professional development. States would be 
encouraged to enhance their recruitment and professional development 
activities for CTE educators, for example, by developing talented 
teachers and faculty through alternative licensing policies that 
support mid-career professionals in becoming CTE teachers. States also 
could work in collaboration with industry associations to ensure that 
CTE teachers and faculty have opportunities to refresh their knowledge 
of industry and of effective instructional practices for students of 
diverse backgrounds and needs, including English learners and students 
with disabilities.
    In addition, the 2017 request includes other significant new 
resources to support teachers, including CTE instructors, through pre-
service training and in-service professional development. For example, 
we are proposing $125 million for a Teacher and Principal Pathways 
program, which would make competitive grants to institutions of higher 
education and other nonprofit entities to support the creation and 
expansion of high-quality teacher and principal preparation programs. 
This investment would significantly expand the diversity and number of 
new teachers and principals who have high-quality, evidence-based 
training and preparation for their important roles in high-need 
districts. These pathways are particularly important for CTE teachers, 
many of whom come from industry.
      career and technical education programs in rural communities
    Question. Many schools prioritize CTE for 21st century 
technologies, but in rural States agricultural and other traditional 
CTE programs remain important. How does your budget embrace new 
directions in CTE while also continuing to support agricultural and 
manufacturing programs important to rural States?
    Answer. Our Perkins reauthorization proposal includes a number of 
provisions that would support CTE programs in rural areas. First, 
States would be required to ensure that rural economic needs are 
considered in the creation of CTE programs and that rural students have 
access to high-quality CTE programs. In addition, rural districts would 
have to form consortia with postsecondary institutions, but would have 
flexibility to create such partnerships at a regional level. 
Furthermore, CTE programs would have to be aligned with labor market 
demands in the region, ensuring that rural districts support the 
employment needs of their community.
    The Administration's request for $4 billion in mandatory funding 
over 3 years for Computer Science for All State grants would also 
provide resources to rural areas and help students attain skills to 
succeed along their career pathways. The Computer Science for All 
program would support grants to stimulate and advance comprehensive 
State efforts to offer rigorous coursework to all students in preschool 
through grade 12, with a focus on serving students in under-resourced 
schools and communities (including in rural and urban areas) and 
improving participation by student groups historically underrepresented 
in science, technology, engineering, and mathematics (STEM) fields. 
Similarly, the request for $100 million in discretionary funding for 
the Computer Science for All Development Grants would support 
competitive grants to LEAs to help jump-start improving access to 
computer science and related STEM coursework in districts.
    In addition, the proposed $80 million Next Generation High Schools 
program would support the transformation of secondary education in 
order to create more challenging and relevant academic and career-
related learning opportunities for youth. The purpose of the program is 
to help districts and their partners redesign the high school 
experience, with a priority on projects designed to improve readiness 
in STEM fields as well as projects that would serve areas with limited 
access to high-quality college and career opportunities, including 
rural LEAs. Accordingly, Next Generation projects could support rural 
programs with an agricultural or manufacturing focus.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                     higher education de-regulation
    Question. Higher Ed Deregulation: What is the status of your 
implementation of the following three recommendations from the report 
of the Task Force on Federal Regulation of Higher Education?
    1. Return of Title IV Funds
    2. Financial Responsibility Standards
    3. Reporting of Data to the Department
    The Task Force identified 59 specific burdensome regulations. Of 
the 59, they identified approximately a dozen which can be changed by 
the Secretary without Congressional action. 3 of these regulations are 
included in the Task Force's top 10 list of especially problematic 
regulations.
    Answer. Consistent with the recommendations in the Task Force 
report, the Administration has taken important steps to relieve 
institutional burden. In September, President Obama announced 
significant changes in the process for filing the Free Application for 
Federal Student Aid (FAFSA), which would allow the use of ``prior-
prior'' year income information, permitting families and students to 
apply for aid 3 months earlier. Both of these results of these change 
will streamline the student aid process and provide families with an 
earlier picture of their aid eligibility. Despite these improvements, 
we agree that more can be done to make it easier to apply for college. 
That is why the recent President's Budget called for additional and 
significant FAFSA simplification by removing questions regarding 
savings, investments, and net worth, which rarely affect the actual aid 
award but significantly lengthen the application for some families. 
Additionally, untaxed income and exclusions from income data that are 
not reported to the IRS would no longer be collected. To prevent 
resulting decreases of aid awards, the Budget also proposes adjustments 
to the Expected Family Contribution for certain categories of 
applicants.
    The 2017 President's Budget's also addressed another of the Task 
Force's recommendations by proposing streamlining and reforming income-
driven repayment by creating a single, simple, and better targeted 
income-driven repayment plan.
    With respect to other recommendations in the report, including 
these three issues, we are in the process of identifying and 
prioritizing additional ways to alleviate institutional burden while 
still fulfilling our obligations to protect students and taxpayers. As 
you know, regulatory work under Title IV of the HEA requires negotiated 
rulemaking which is a time consuming and expensive, and we must 
prioritize and allocate limited resources.
    In addition, as Congress considers ways in which to reform or 
eliminate these institutional requirements, we remain committed to 
working with your office and others to achieve this balance.
                          fafsa simplification
    Question. Last year and this year, the Administration's education 
budget calls for simplifying the FAFSA by eliminating about 30-40 
questions. However, the Department has not yet provided specifics 
regarding what questions could be eliminated. What exactly are the 
questions that the Department feels can and should be eliminated from 
the FAFSA?
    Answer. The Department of Education has taken significant steps to 
improve the process of applying for Federal financial aid. These 
include providing an online version of the FAFSA that uses skip-logic 
to help students complete faster; permitting students and families to 
pull in tax information automatically through the IRS Data Retrieval 
tool; and, for the first time in the 2017-2018 award year, allowing 
applicants to apply earlier and to use their prior-prior year income 
information. For our last full FAFSA cycle, students completed the 
online FAFSA in an average of 20 minutes one-third the amount of time 
it took 7 years ago.
    However, the Department continues to believe that the FAFSA should 
be simpler for many applicants, some of whom are still asked to 
complete more than 100 questions, by removing data elements pertaining 
to assets and additional types of income, and by relying primarily on 
information readily available in Federal tax returns. That is why the 
President's 2016 and 2017 Budgets proposed additional and significant 
FAFSA simplification by removing questions regarding savings, 
investments, and net worth, which rarely affect the actual aid award 
but significantly lengthen the application for some families. 
Specifically, we propose removing questions related to:
  --Savings, investments, and net worth (including questions 41-43 and 
        90-92);
  --Untaxed income and exclusions from income not reported to the IRS 
        (including all items from the ``Additional Financial 
        Information'' and ``Untaxed Income'' worksheetsquestions 44 [b, 
        c e, and f], 45 [a, b, c, g, h, i, and j], 93 [b, c, e, and f], 
        and 94 [a, b, c, g, h, and i]; and
  --Income earned from work [39, 40, 88, and 89]).
    To prevent resulting decreases of aid awards, the Budget also 
proposes adjustments to the Expected Family Contribution for certain 
categories of applicants. Overall, our FAFSA simplification proposal 
would eliminate approximately one-third of the questions on the FAFSA.
      borrower defenses provision within the higher education act
    Question. The Department announced a process for borrowers to claim 
the Borrower Defenses provision within the Higher Education Act. The 
Department has begun to process these requests and is currently 
conducting a rulemaking process to update and clarify the process under 
which borrowers may claim this relief. Recognizing the final policy is 
still in the works, what were the Department's preliminary estimates of 
potential cost to taxpayers related to this provision as it related to 
the situation involving Corinthian Colleges and the costs associated 
with other borrowers seeking potential claims unrelated to Corinthian?
    Answer. The investigation and findings of fraud involving 
Corinthian Colleges and subsequent closure demonstrated that the 
implementing regulations for the borrower defense discharge authority 
are highly burdensome for the Department and do not provide enough 
protections for students and taxpayers. The number of affected students 
from Corinthian schools is unprecedented and has been handled through a 
Special Master to create a fair, transparent, and efficient process to 
evaluate the borrower defense claims of affected borrowers. As of March 
16, 2016, the Department has processed 6,876 Corinthian closed school 
discharges totaling $90.6 million. For borrower defense claims, as 
noted in the Special Master's March 25th report, 2,048 borrower defense 
claims totaling $42.3 million have been approved, with 345 completed 
for $7.5 million. Additionally, 9,875 borrower defense claims are 
awaiting review.
    As the Special Master process has developed, it reinforced the need 
to revise and update the borrower defense regulation through negotiated 
rulemaking. As noted, the development of the regulation is ongoing and 
the Department is in the process of developing a cost estimate for this 
regulatory package that will be presented in the Regulatory Impact 
Analysis of the NPRM and the Final Rule. This is a complex regulation 
and we are continuing to look for data and information that will help 
us develop our estimates.
    As the Corinthian College situation is resolved and the borrower 
defense process is revised through regulation, the Department will 
continue to update and work with Congress to address abusive practices 
of institutional participants in Federal student loan programs and the 
borrower claims arising from such practices.
        case-by-case eligibility of borrower defenses provision
    Question. The statute is clear that the Borrower Defenses provision 
is designed for individual and case-by-case application, as the 
Department has traditionally observed; however, in its most recent 
actions, the Department has seemingly not applied this provision or 
established a process that resembles an individual, case-by-case 
eligibility. What is the legal rationale for allowing a cohort of 
students who attended a college, like Heald College for example, to be 
automatically qualified for relief?
    Answer. The Department has established a process for borrowers to 
obtain relief for injury due to placement rate misrepresentations by 
Heald College. This process requires each borrower to attest, on an 
individual basis, to facts that would make a case for relief for an 
individual under California law. Where the Department has found that 
Heald published an inflated placement rate for a particular program, a 
borrower who might have reasonably relied on such a rate to their 
injury must attest that he or she in fact did so rely. The Department 
does not believe, however, that the borrower defense provision in the 
HEA requires individual, case-by-case application by borrowers and is 
exploring options through the negotiated rulemaking by which the 
Department may assert borrower defense claims on behalf of borrowers 
whether on an individual basis or as a cohort.
       interagency task force focused on for-profit institutions
    Question. On November 17, 2015, I signed a letter to then Secretary 
Duncan inquiring about the Interagency Task Force focused on for-profit 
institutions. To date no reply has been received by this office. When 
can a reply to that letter be expected providing full details to each 
question contained in that letter?
    Answer. On January 28, 2016, Under Secretary Ted Mitchell wrote a 
response to your letter on behalf of Secretary Duncan and sent copies 
of the letter to the other co-signers of your letter. Copies of these 
responses are enclosed.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                federal student aid performance metrics
    Question. Last week, Federal Student Aid (FSA) announced that it 
was creating new performance metrics for loan allocation ``because of 
the significant variation in the composition of loan portfolios'' 
between student loan servicers. What variation is FSA referring to? Why 
is the Department creating new performance metrics when it just 
completed such a process in 2014? What new performance metrics is the 
Department considering using going forward?
    Answer. The portfolios managed by the Not-for-Profit (NFP) 
servicers are overwhelmingly made up of accounts received from the 
Direct Loan Servicing Center in 2011-2012. These loans were already in 
repayment and current at the time they were selected for transfer to 
the NFPs. As a result, the loans are more stable and mature than the 
portfolios of the Title IV Additional Servicers (TIVAS), which have 
high volumes of new borrowers who are more likely to go in and out of 
delinquency. These four Federal loan servicers also service Federal 
Family Education Loan (FFEL) Program loans purchased through the 
Ensuring Continued Access to Student Loans Act of 2008 (ECASLA), Public 
Law 110-227 and loans of all statuses received from the Direct Loan 
Servicing Center. Although the NFP members of the Federal loan servicer 
team began receiving new borrowers in early 2015, most of those loans 
are still in an in-school status.
    Because we believe these variations in the composition of the TIVAS 
and NFP portfolios prevent an optimal comparison of their performance, 
we plan to develop and implement adjustment factors or new common 
metrics not later than June 30, 2016, to take effect no later than July 
1, 2016. Those adjustments or metrics will account for variations in 
TIVAS' and NFPs' loan portfolios. We have not completed the process of 
determining what adjustments or changes to the current metrics will be 
made. As we continue the process of developing these adjustments or 
changes, we are consulting with all Federal loan servicers for their 
input on how best to control for such variation and how to optimally 
compare their performance. We will post publicly our calculations and 
the results of both our initial and subsequent allocations, as has been 
our standard practice with previous results and allocations.
  national non-profit and for-profit student loan servicing contracts
    Question. The contracts the Department has in place with the 10 
national nonprofit and for-profit servicers specify that servicer 
performance will be measured semi-annually in the areas of customer 
satisfaction and default prevention, and these results will determine 
future loan volume allocations every 6 months. What rationale is the 
Department using--and under authority is the Department using--to 
unilaterally reduce the allocation window from September to July?
    Answer. A provision of the Consolidated Appropriations Act of 2016 
related to servicing allocations requires the Department to take into 
consideration the capacity of each servicer to manage and process new 
and existing borrower accounts. We have experience working with each of 
our servicers and are already familiar with their systems and 
capabilities. Regardless, we have requested, received, and conducted an 
initial review of capacity plans from all of our servicers to assess 
the reasonability and risk of each servicer's staffing, training, 
system, and other resource planning. Based on our experience and our 
initial assessment of the capacity plans, we are confident that all of 
our servicers can manage and process projected borrower account 
allocations for the next few months, while the volume of new accounts 
is relatively low. While we continue the process of completing and 
documenting our capacity assessment, we will monitor each servicer's 
performance closely and can modify or discontinue allocations on short 
notice if any issues arise. Our plan is to complete and document the 
capacity review, as well any adjustments or changes to the metrics, by 
June 30, 2016. The current allocation period was shortened to allow us 
to reflect the results of these actions prior to the beginning of the 
new academic year on July 1, 2016. This action, and other changes 
related to the allocation of borrower accounts, will be made under the 
Department's general authority to modify contract terms.
                                 ______
                                 
          Questions Submitted by Senator Shelley Moore Capito
         randomized order of students list of colleges on fafsa
    Question. The West Virginia Higher Education Policy Commission 
(WVHEPC) has reached out to my office regarding a change on the FAFSA 
for the 2017-2018 academic year where the Department of Education will 
stop providing State agencies with the order in which students list 
colleges. States will continue to receive the full list of colleges 
that students share on the application, but the Education Department 
will first randomize the ordering of the institutions.
    WV and other States have found that students are most likely to 
attend the college they list first on the FAFSA. Without that 
information, they would need to develop a process to capture the 
correct institution they are attending. Currently, if they send the 
student award to the incorrect institution, they call or e-mail their 
office and they transfer the award, which is not too much of a burden 
because students generally attend the first institution they list. 
However, if the information was randomized as proposed they would 
instead have tens of thousands of students calling their office to have 
their award transferred, which will put a larger administrative burden 
on their and other State's small staffs. What precipitated this change?
    Answer. Most States administer their State need-based grant 
programs centrally, relying primarily on the information provided by 
FAFSA applicants to provide early notification of State grant awards to 
students for attendance at one or more of the institutions listed by 
the student on the FAFSA. As you may be aware, out of concern that some 
institutions were using the list of the students' FAFSA institutions 
for reasons unrelated to determining eligibility for student financial 
aid (e.g., admissions decisions, marketing, differentiated 
institutional award packages), we no longer provide an institution with 
information about the other institutions the student listed on the 
FAFSA beginning with the 2016-2017 FAFSA. As to State grant agencies, 
we continue to provide them with the full listing of the student's 
FAFSA listed institutions. However, in January the Department announced 
that, beginning with the 2017-2018 FAFSA, we would no longer provide 
the listing of institutions to State grant agencies in the order 
provided by the students. Instead, we will randomly re-order the list. 
This change was made to avoid any possible misunderstanding students 
may have about the implications of their listing of institutions may 
have, including, for example, any misunderstanding about whether they 
will be considered for State student financial aid by their State (and 
the amount) if the student does not list an institution located in the 
State in the first positions of the listing on the FAFSA form.
            similar concerns from other members of congress
    Question. Have you heard similar concerns from members of Congress 
and other higher education agencies in other States?
    Answer. We have heard similar concerns from members of Congress and 
other higher education agencies in other States. Prior to making our 
decision, however, we spoke with officials representing the National 
Association of State Student Grant and Aid Programs about our concerns. 
As a result of our conversations, and from comments we received from 
others, we understand that our decision may impact some States' student 
financial aid award notification and budget processes, administrative 
systems, and student outreach and counseling efforts. Consequently, we 
announced our decision as soon as possible so that States have as much 
time as possible to begin making, funding, and implementing any 
necessary changes. For these same reasons, we opted to not implement 
the planned changes sooner, in the 2016-2017 FAFSA cycle. As an interim 
step, we did include in the 2016-2017 FAFSA additional State-specific 
information for applicants concerning their designation of institutions 
that they wish to receive FAFSA information, such as whether the order 
or type of institution they designate may affect their eligibility for, 
or notification of, State student financial aid. NASSGAP officials 
kindly offered to help us collect the information we needed from States 
to provide applicants with this information and we are grateful for 
their assistance.
                    consider not implementing change
    Question. Considering the time, resources and training which will 
be required for State higher education agencies and the potential for 
confusion for students would the Department consider not implementing 
this change?
    Answer. At this time, they are not considering not implementing 
this change. However, we are always open to hearing about the concerns 
Members of Congress, institutions of higher education, and State 
agencies may have about important issues affecting students' access to 
Federal student aid.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
            reduction in title i funding to eligible schools
    Question. Dr. King, I mentioned in my opening statement how pleased 
I was to see the increase proposed in your budget for Title I grant. 
This program provides funding to more than 80 percent of the Nation's 
school districts and is the core Federal program for our Nation's 
schools. However, I am concerned about the budget's proposal to 
designate a portion of the increase for use outside of the authorized 
Title I formulas that benefit all eligible school districts. This 
proposal would reduce funding for eligible school districts just as 
they are implementing the new law, with the result that many would see 
cuts to their Title I funding. What do you tell those school districts 
many of which face significant challenges that would see reductions in 
their Title I allocations?
    Answer. The Administration requests $15.4 billion for Title I 
Grants to Local Educational Agencies (LEAs) for fiscal year 2017. As 
you note, our request includes authority to allocate 50 percent of 
funds above the authorized funding level, or $174 million to States to 
support school improvement activities by LEAs consistent with section 
1003(b) of the amended law. The Administration believes that turning 
around the Nation's lowest-performing schools remains an especially 
urgent challenge and warrants prioritized funding. The portion of the 
requested increase that would be allocated for school improvement 
activities would buttress States' increased set-asides under section 
1003(a) of the reauthorized law and help ensure that LEAs can implement 
the rigorous interventions critical to turning around these schools. 
Under section 1003(a), States may make subgrants to LEAs competitively 
or by formula.
    Due to the reauthorized law's increased set-asides under 1003(a) 
and the suspension in fiscal year 2017 of the LEA-level hold-harmless 
provision, some LEAs may receive lower Title I allocations in fiscal 
year 2017 than in fiscal year 2016. The impact of the amended law on 
LEA allocations would be mitigated, however, if Congress enacts the 
Administration's request, which would make available to LEAs an 
estimated $160 million over the amount that would be available at the 
fiscal year 2017 authorized funding level.
                     newly authorized audit program
    Question. Dr. King, as you know, one of the priorities of our 
elementary and secondary education reauthorization bill was to reduce 
reliance on high-stakes testing, so teachers and students can spend 
less time on test prep and more time on learning. I heard from many 
around my home State of Washington about the need to replace this flaw 
in No Child Left Behind with having common sense testing policies. And, 
that's what we did. Your budget proposes $403 million, an increase of 
$25 million, to help pay for the cost of State tests. This amount 
includes $20 million for the newly-authorized audit program of testing 
in our schools. Can you comment about how these funds will help States 
and districts eliminate unnecessary testing so they can better focus on 
student learning? How would you allocate the $20 million proposed for 
the audit program?
    Answer. For fiscal year 2017, the $18.2 million will be awarded to 
approximately 12 States on a competitive basis. Awarding funds 
competitively rather than by formula will allow the Department to 
provide grants of sufficient size, consistent with the statutory 
requirement for a minimum annual award of $1.5 million per State, to 
ensure that States demonstrating the strongest commitment to meaningful 
assessment audits receive the additional support they need to be 
successful in conducting such audits and subsequently developing plans 
to improve their assessment systems based on the audit findings.
    Funds would be used for a variety of activities that would support 
eliminating unnecessary testing while promoting better use of 
assessments to support learning, consistent with the principles in the 
Administration's Testing Action Plan to help States and districts 
reduce redundant or low-quality assessments while protecting the vital 
role that good assessments play in measuring student progress each year 
and providing critical information to parents and teachers. States 
receiving these funds would have to review the purpose and educational 
benefit of the assessments they administer, as well as the legal 
authority for administering them. As part of this review, States would 
have to obtain feedback from stakeholders on a number of issues 
pertaining to the assessments, such as how assessment data are used to 
improve instruction; the timing and format for releasing assessment 
results; the amount of time teachers spend on assessment preparation 
and administration; and which assessments school personnel, parents, 
and students do and do not find useful. States would not only have to 
implement a plan to eliminate unnecessary or low-quality assessments at 
the State level; they would also be required to disseminate best 
practices for improving assessment quality and efficiency. Furthermore, 
these funds would also allow States to assist LEAs in examining and 
streamlining local assessment systems, as a portion of a State's award 
must be reserved to provide subgrants to LEAs, or consortia of LEAs, to 
improve assessment quality and use at the local level. Ultimately, 
these activities will help ensure that students only take tests that 
are that are of high quality, support good instruction, and help keep 
all students on track. These activities will also prevent tests from 
occupying too much classroom time, which crowds out teaching and 
learning.
    For fiscal year 2017, the $18.2 million will be awarded to 
approximately 12 States on a competitive basis. Awarding funds 
competitively rather than by formula will allow the Department to 
provide grants of sufficient size, consistent with the statutory 
requirement for a minimum annual award of $1.5 million per State, to 
ensure that States demonstrating the strongest commitment to meaningful 
assessment audits receive the additional support they need to be 
successful in conducting such audits and subsequently developing plans 
to improve their assessment systems at the State and local level based 
on the audit findings.
          dear colleagues letters and other guidance documents
    Question. According to the Department of Justice, 1 in 5 female 
undergraduates have experienced some type of sexual assault while in 
college.\1\ This data backs up a similar 2010 finding from the Centers 
for Disease Control and Prevention, National Intimate Partner and 
Sexual Violence Survey, which found that 1 in 5 women and 1 in 71 men 
will be raped at some point in their lifetime.\2\ These surveys join 
several others that have concluded a similar finding in the past 
year.\3\ These surveys validate a growing trend of gender-based 
violence on our college campuses. This is a growing public health 
epidemic across our schools.
---------------------------------------------------------------------------
    \1\ Department of Justice, Bureau of Justice Statistics, Campus 
Climate Survey Validation Study Final Technical Report, available at: 
http://www.bjs.gov/content/pub/pdf/ccsvsftr.pdf.
    \2\ Centers for Disease Control and Prevention, National Intimate 
Partner and Sexual Violence Survey, available at: http://www.cdc.gov/
violenceprevention/pdf/nisvs_report2010-a.pdf.
    \3\ Association of American Universities, Report on the AAU Campus 
Climate Survey on Sexual Assault and Sexual Misconduct, available at: 
https://www.aau.edu/registration/public/PAdocs/Survey_Communication_9-
18/Final_Report_9-18-15.pdf; Washington Post and Kaiser Family 
Foundation, ``1 in 5 College Women Say They Were Violated,'' http://
www.washington
post.com/sf/local/2015/06/12/1-in-5-women-say-they-were-violated/.
---------------------------------------------------------------------------
    Answer. Yes. The Department has issued interpretive guidance 
throughout its 36-year history consistent with the Administrative 
Procedure Act (APA), which authorizes agencies to issue interpretative 
rules and policy statements ``to advise the public of the agency's 
construction of the statutes and rules which it administers.'' Shalala 
v. Guernsey Memorial Hospital, 514 U.S. 87, 99 (1995). This was also 
true of the Department's predecessor, the Department of Health, 
Education, and Welfare.
                department issued interpretive guidance
    Question. Can you tell me for the period of the past 10 years, 
covering a time when the Department was led by secretaries from both 
parties, how many times has your Department issued such interpretive 
guidance? What about the Office for Civil Rights? And, what prompted 
such guidance documents, were they requests from the regulated 
community or determined necessary for other reasons?
    Answer. The Department has published a list of the significant 
guidance documents in response to the U.S. Office of Management and 
Budget's Agency Good Guidance Practices (January 25, 2007), www.ed.gov/
policy/gen/guid/significant-guidance.html. Significant guidance issued 
by OCR is listed on pages 5-8. The list was last updated November 4, 
2015. The list includes 20 significant guidance documents issued by OCR 
in the past 10 years. In December 2015, OCR issued an additional Dear 
Colleague Letter on Title IX's exemption for voluntary youth service 
organizations. The Department has also issued many other guidance 
documents that were not deemed significant.
    As you are aware, Title IX of the Education Amendments of 1972 \4\ 
is an important civil rights law that prohibits discrimination. The 
statute reads, ``No person in the United States shall, on the basis of 
sex, be excluded from participation in, be denied the benefits of, or 
be subjected to discrimination under any education program or activity 
receiving Federal financial assistance''.\5\
---------------------------------------------------------------------------
    \4\ 20 U.S.C. Sec. 1681.
    \5\ Public Law No. 92-318, tit. IX, Sec. 901, 86 Stat. 235, 373, 
codified at 20 U.S.C. Sec. Sec. 1681-1688.
---------------------------------------------------------------------------
                  title ix department issued guidance
    Question. As you are aware, Title IX of the Education Amendments of 
1972 \6\ is an important civil rights law that prohibits 
discrimination. The statute reads, ``No person in the United States 
shall, on the basis of sex, be excluded from participation in, be 
denied the benefits of, or be subjected to discrimination under any 
education program or activity receiving Federal financial 
assistance''.\7\ Since 1972 when Title IX was enacted into law, what 
regulations has the Department of Education released?
---------------------------------------------------------------------------
    \6\ 20 U.S.C. Sec. 1681.
    \7\ Public Law No. 92-318, tit. IX, Sec. 901, 86 Stat. 235, 373, 
codified at 20 U.S.C. Sec. Sec. 1681-1688.
---------------------------------------------------------------------------
    Answer. The Department first issued regulations implementing Title 
IX in 1975, using notice-and-comment procedures. Since then, the 
regulations have been revised several times. The regulations were most 
recently revised in 2006 to modify Title IX regulatory requirements 
pertaining to the provision of single-sex schools, classes, and 
extracurricular activities in elementary and secondary schools. The 
full current text of the Department's Title IX regulations is available 
online at www.ed.gov/policy/rights/reg/ocr/edlite-34cfr106.html.
                   sub-regulatory policy and guidance
    Question. What sub-regulatory policy and guidance has the 
Department of Education issued?
    Answer. The Department has issued many guidance documents 
interpreting Title IX and the Department's Title IX regulations. OCR's 
Title IX policy guidance documents are available in OCR's reading room: 
www.ed.gov/ocr/frontpage/faq/rr/policyguidance/sex.html.
            reasons the department issued title ix guidance
    Question. Why did the Department feel it was necessary to issue 
this guidance and take such steps?
    Answer. The Department's decision to issue each guidance document 
is fact-specific. Considerations include the volume of reports or 
complaints of noncompliance, questions that arise in OCR's 
investigation of complaints, questions received from stakeholders, 
legal developments in Federal courts' analysis of the laws enforced by 
the Department, and requests for guidance from the members of the 
public and Congress. For example, OCR issued its 2010 Dear Colleague 
Letter on Harassment and Bullying in response to reports that schools 
were responding to complaints of discriminatory harassment under 
bullying policies that did not take civil rights into consideration. 
Likewise, OCR's 2014 Question and Answer document on single-sex classes 
was issued because OCR observed confusion among recipients about when 
single-sex schools were permissible, leading to recipients being 
subjected to private litigation.
                  title ix schools under investigation
    Question. In May of 2014, the Department of Education released a 
list of the higher education institutions under investigation for 
possible violations of Federal law over the handling of sexual violence 
and harassment complaints.\8\ This original list had 55 schools. Why 
did the Department of Education make the list of schools with active 
Title IX investigations public? Had this list been public before?
---------------------------------------------------------------------------
    \8\ http://www.ed.gov/news/press-releases/us-department-education-
releases-list-higher-education-institutions-open-title-i.
---------------------------------------------------------------------------
    Answer. Consistent with our obligation to protect personal privacy 
and with our resource limitations, the Department strives to be open 
about matters of concern to the public to further the values of 
transparency embodied in the Freedom of Information Act (FOIA).
    In May 2014, the Department began releasing a list of names of 
schools that have open and pending Title IX sexual violence 
investigations. The purpose of releasing this list is to (a) be 
responsive to the public's strong interest in knowing which schools are 
currently subject to government enforcement activities and (b) foster 
better public awareness of civil rights and institutions' awareness of 
civil rights obligations in order to spur community dialogue, increase 
safety and reduce discrimination on school campuses. The Department is 
committed to improving communication with survivors, parents, school 
administrators, faculty, and the public, by making our Title IX 
enforcement efforts more transparent. The Department made clear when it 
released the list that the fact that schools are being investigated 
does not mean that they have violated Title IX or any other Federal 
law.
             transparency and accountability under title ix
    Question. What other steps has the Department of Education taken to 
ensure transparency and accountability for Title IX?
    Answer. The Department is focused on improving compliance with 
Federal laws by increasing transparency. OCR now posts nearly all 
recent resolution letters and agreements with recipients on our 
website, except those documents that raise individual privacy concerns. 
In addition, OCR has posted sexual violence resolution agreements and 
letters on NotAlone.gov to make them more accessible to students, 
parents, and community members. We hope that these agreements will be 
helpful for schools seeking to address similar problems. At the same 
time, we note that each agreement represents the resolution of a 
particular case, not OCR or Administration policy. Every school needs 
to take into account the circumstances on its own campus in adopting 
practices to comply with Title IX.
    The Department is also in the process of requiring both public 
school districts and colleges and universities to report the name and 
contact information of Title IX coordinators through two existing data 
collections, and we intend to make the collected information publicly 
available. Every school district and college and university is required 
by law to designate at least one Title IX coordinator, an employee 
charged with coordinating the school's Title IX responsibilities. 
Schools are required to notify students and employees of the name and 
contact information of the Title IX coordinator. However, there is 
currently no central, national repository of coordinator contact 
information. We hope these collections will make it easier for anyone 
to locate the name and contact information of a particular Title IX 
coordinator, and will allow Title IX coordinators to collaborate and 
share information with each other.
    After receiving almost 40 requests for all or some subset of 
documents related to schools' requests for religious exemptions from 
Title IX and OCR's response letters under the Freedom of Information 
Act (FOIA), OCR plans to produce these documents on its website.
        increased number of schools under title ix investigation
    Question. Since 2014, the list has grown. Why has the list grown?
    Answer. OCR has received and continues to receive an unprecedented 
volume of Title IX complaints involving allegations of sexual violence. 
OCR has negotiated resolutions of some of these complaints, but many 
remain under investigation or negotiation. OCR continues to vigorously 
enforce Title IX and negotiate robust resolutions where it finds 
violations.
              schools initiative to combat sexual assault
    Question. What proactive response steps have schools, either on the 
original list or subsequently, taken to combat sexual harassment and 
violence on college campuses?
    Answer. OCR's release of its 2011 Dear Colleague Letter on Sexual 
Violence (DCL) and 2014 Questions and Answers on Title IX and Sexual 
Violence are widely credited with having sparked significant changes at 
schools as they worked to meet Title IX's requirements consistent with 
the DCL. The 2011 DCL discusses the proactive efforts schools can take 
to prevent sexual violence and to educate employees and students and 
provides examples of the types of remedies that schools and OCR may use 
to respond to sexual violence.
    OCR requires schools to properly address and prevent sexual 
violence through a wide range of school- and campus-specific remedies. 
Such remedies could include:
  --Requiring regular and mandatory sexual assault and harassment 
        trainings for all students, faculty, staff, and administrators;
  --Mandating that a school conduct annual climate surveys to assess 
        sexual harassment and other civil rights issues on campus;
  --Requiring a school to hire or designate Title IX coordinator;
  --Ensuring that a school obtains a consultant as an expert in sexual 
        harassment prevention;
  --Instructing a school to seek input from the campus community, 
        including from past complainants, in order to evaluate and 
        improve the effectiveness of the school's implementation of its 
        sexual harassment policies and practices; and
  --Ensuring that a school's students and employees are aware of their 
        rights under Title IX.
  --During the course of OCR investigations and through contacts with 
        the recipient community, OCR has learned of many proactive 
        steps schools have taken, including for example:
  --Revising their nondiscrimination policies to fully satisfy Title IX
  --Taking steps to notify their student communities of allegations of 
        sexual violence
  --Providing bystander and other training to school community members
  --Creating task forces to identify ways to better prevent and address 
        sexual violence
  --Conducting climate surveys of students
  --Revising school disciplinary practices to better address sexual 
        violence
  --Entering into Memoranda of Understanding with local police forces 
        to ensure coordinated responsiveness to sexual violence
  --Committing research resources to creating evidence-based prevention 
        and response best practices
                     title ix grievance procedures
    Question. The 2011 Dear Colleague Letter noted the ``Grievance 
Procedures'' clarified that Title IX regulations require all recipients 
to adopt and publish grievance procedures for the prompt and equitable 
resolution of sex discrimination complaints. The Department's Office 
for Civil Rights noted ``As part of these procedures, schools generally 
conduct investigations and hearings to determine whether sexual 
harassment or violence occurred. In addressing complaints filed with 
OCR under Title IX, OCR reviews a school's procedures to determine 
whether the school is using a preponderance of the evidence standard to 
evaluate complaints.'' \9\ Before the Department of Education issued 
this guidance, what standard were most schools using? What prompted the 
Department of Education to issue guidance this for schools?
---------------------------------------------------------------------------
    \9\ U.S. Dept. of Educ., Office for Civil Rights, Dear Colleague 
(Apr. 4, 2011).
---------------------------------------------------------------------------
    Answer. The 2011 Dear Colleague Letter noted the ``Grievance 
Procedures'' clarified that Title IX regulations require all recipients 
to adopt and publish grievance procedures for the prompt and equitable 
resolution of sex discrimination complaints. The Department's Office 
for Civil Rights noted ``As part of these procedures, schools generally 
conduct investigations and hearings to determine whether sexual 
harassment or violence occurred. In addressing complaints filed with 
OCR under Title IX, OCR reviews a school's procedures to determine 
whether the school is using a preponderance of the evidence standard to 
evaluate complaints.''
  --The Department does not formally track the standard of proof that 
        schools use in their grievance procedures.
  --A 2002 study submitted to the National Institute of Justice found 
        that approximately 80 percent (149 of 183) of institutions that 
        identified a particular standard of proof for sexual assault 
        disciplinary proceedings employed the preponderance-of-the-
        evidence standard.\10\ More recently, in 2011, a Standard of 
        Evidence Survey compiled by the Foundation for Individual 
        Rights in Education, found that before the 2011 DCL was issues 
        approximately 80 percent (135 of 168) of institutions that 
        specified a standard of proof for adjudicating allegations of 
        sexual harassment and sexual assault used the preponderance-of-
        the-evidence standard or lower.\11\
---------------------------------------------------------------------------
    \10\ See Heather Karjane, et al., Campus Sexual Assault: How 
America's Institutions of Higher Education Respond 122 (Nat'l Criminal 
Justice Reference Serv., Oct. 2002), www.ncjrs.gov/pdffiles1/nij/
grants/196676.pdf.
    \11\ See Standard of Evidence Survey: Colleges and Universities 
Response to OCR's New Mandate (Oct. 28, 2011), http://thefire.org/
public/pdfs/f17fa5caafd96ccdf8523abe56442215.pdf?direct and http://
thefire.org/public/pdfs/8d799cc3bcca596e58e0c2998e6b2ce4.pdf?direct.
---------------------------------------------------------------------------
  --Through our work investigating complaints, conducting compliance 
        reviews, and responding to technical-assistance requests from 
        schools, it became clear that schools could use assistance in 
        how to apply the Title IX requirements related to incidents of 
        sexual harassment and sexual violence, including the 
        appropriate standard of proof to use. We recognized that this 
        is a complex issue, and schools were often unsure of what their 
        Title IX obligations are in this area.
  --Additionally, whether or not we issued guidance, our office was 
        receiving complaints that schools were discriminating by 
        failing to address sexual harassment and sexual violence. And 
        we must resolve every complaint we receive so we were 
        investigating and making findings in individual cases, 
        including regarding the standard of proof. By issuing guidance, 
        we gave recipients clearer notice of what we expected of them 
        in this area if we did receive a complaint, and encouraged some 
        schools to change their behavior so that there wouldn't be a 
        complaint.
          number of schools using department issued standards
    Question. After introducing this guidance, does the Department have 
a sense of how many schools are using this standard?
    Answer. The Department does not formally track the standard of 
proof that schools use in their grievance procedures.
    As explained above, according to two studies, the majority of 
schools were already using a preponderance-of-the-evidence standard 
prior to the issuance of the 2011 DCL. Since the issuance of the 2011 
DCL, OCR has not resolved any complaints where schools have not agreed 
to change their standard of proof if they were not already using a 
preponderance-of-the-evidence standard.
             appropriate remedies for non-compliant schools
    Question. This same 2011 Dear Colleague Letter \12\ also noted 
``Steps to Prevent Sexual Harassment and Sexual Violence and Correct 
its Discriminatory Effects on the Complainant and Others.'' The section 
provided for ``education and prevention'' to ensure full compliance 
with Title IX and steps for schools to prevent sexual harassment and 
violence in the first place. As part of this section, the Department 
also notes ``When OCR finds that a school has not taken prompt and 
effective steps to respond to sexual harassment or violence, OCR will 
seek appropriate remedies for both the complainant and the broader 
student population."\13\ What individual or student population relief 
has the Department been able to obtain?
---------------------------------------------------------------------------
    \12\ Id. at 14.
    \13\ Id. at 16.
---------------------------------------------------------------------------
    Answer. OCR has required schools to properly address sexual 
harassment or violence through a wide-range of remedies applicable to 
the broader school population. Such remedies include, requiring regular 
and mandatory sexual harassment and violence trainings for all 
students, faculty, staff, and administrators; mandating that a school 
conduct annual climate surveys to assess sexual harassment and violence 
issues on campus; requiring a school to hire or designate a Title IX 
coordinator; ensuring that a school obtains a consultant as an expert 
in sexual harassment and violence prevention; and instructing a school 
to seek input from the campus community, including from past 
complainants, in order to evaluate and improve the effectiveness of the 
school's implementation of its sexual harassment and violence policies 
and practices.
    In addition to remedies for the broader school population, OCR's 
resolution agreements may also include remedies for individual 
complainants. For example, OCR's resolution agreements have required 
schools to reimburse complainants for educational and medical expenses, 
such as tuition or payments for counseling services, where those 
remedies are required to eliminate a hostile environment or remedy the 
effects of sexual violence.
                         importance of remedies
    Question. Why did the Department think providing this relief was 
important?
    Answer. The robust remedies OCR requires in our resolution 
agreements are designed to ensure full satisfaction of the civil rights 
laws OCR is charged to enforce. We seek to secure remedies that are 
responsive to violations and concerns we identify during the course of 
our investigations, to ensure going forward that recipients of Federal 
funds fully satisfy Congress' promise that Federal funds will not be 
used to discriminate.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                processing borrower relief applications
    Question. It was December 18, 2013 when I first wrote to the 
Department asking for an investigation of Corinthian Colleges after 
reports of widespread fraud, related to inflated job placement rates. 
Since that time, the company has crumbled and investigations by the 
Department of Education, Consumer Financial Protection Bureau, and 
countless State Attorneys General, including Lisa Madigan in my home 
State of Illinois, have found widespread fraud. I'm concerned that 
despite the tens of thousands of Corinthian students who may be 
eligible under the law for Federal student loan relief, only 1,312 
former Corinthian students have thus far have received it. This is 
unacceptable. What is the Department doing to speed the processing of 
the borrower relief applications it has received and what will it do to 
improve outreach to students to ensure they are aware of their 
eligibility? Is the Department receiving borrower relief claims from 
schools besides Corinthian? When it does, is the Department using that 
information to initiate investigations of those schools?
    Answer. As of March 16, 2016, we've approved borrower defense 
discharges for 2,048 students, and provided closed school discharges to 
6,876 former Corinthian students together representing nearly $133 
million in loan relief. But we are not done. The new form we posted on 
studentaid.gov/Corinthian, based on our latest set of findings about 
misleading placement rates for Everest and WyoTech programs, will allow 
students who were defrauded at more than 90 Corinthian campuses to 
easily seek and obtain relief. The Department has been working closely 
with Attorneys General from multiple States including California, 
Illinois, and Massachusetts to collect and evaluate evidence that could 
form the basis of loan relief for students.
    The Department will continue to reach out to potentially eligible 
borrowers through multiple rounds of emails and postal mail. To improve 
response rates for these emails, the Department has conducted email 
subject-line testing, the results of which we anticipate will improve 
open rates in future email campaigns. In addition, the Department is 
exploring alternative methods of outreach including, but not limited 
to, social media outreach and enhanced coordination with servicers to 
reach potentially eligible borrowers that may not regularly check email 
and/or postal mail.
    The Department has received claims from students at schools other 
than Corinthian. A breakdown of the claims we have received is provided 
in Special Master Joseph Smith's latest report, which can be found at: 
http://www2.ed.gov/documents/press-releases/report-special-master-
borrower-defense-3.pdf. The Department will use borrower defense claims 
as a factor in determining the schools that we investigate.
 enforcement division to reduce fraud and abuse by institutions in the 
                            title iv program
    Question. I'd like to thank you for the Department's recent 
announcement to stand up an enforcement division to root out fraud and 
abuse by institutions in the Title IV program. This will be key to 
ensuring the integrity of the program regardless of what kind of school 
is involved in misconduct. But we know the sector that has been most 
often responsible for misrepresentation and other misconduct affecting 
students for-profit colleges. Nearly every major for-profit college is 
facing State or Federal investigations or lawsuits ITT Tech, University 
of Phoenix, DeVry, just to name a few. But all these institutions 
continue to receive billions in taxpayer funds each year through Title 
IV. What steps is the Department taking, in addition to the new 
enforcement unit, to identify misconduct and cut off Title IV 
eligibility to schools who engage in misconduct?
    Answer. The Department does not have the authority to simply stop 
providing access to Title IV Federal student financial assistance to a 
fully certified institution. Rather, the Department must provide due 
process to institutions through termination or similar actions that are 
litigated through an administrative hearing process, and possibly in 
court.
    The Student Aid Enforcement Unit (http://www.ed.gov/news/press-
releases/student-aid-enforcement-unit-formed-protect-students-
borrowers-taxpayers) will work closely with Federal and State agencies 
to investigate and bring actions against bad actors in order to best 
protect students and taxpayers. The new unit will collaborate with, and 
incorporate evidence gathered in investigations by, partner State and 
Federal agencies, in building cases against institutions of higher 
education. The unit will also collaborate with the Federal Student Aid 
(FSA) Program Compliance Unit regarding evidence which may impact 
ongoing program compliance reviews. FSA's new Chief Enforcement Officer 
will work with his team to create a process to best allocate 
investigative resources; and the new unit will conduct investigations 
that may lead to termination or similar actions by the Department.
    In addition to the objectives of the new Student Aid Enforcement 
Unit, Program Compliance established the Multi-Regional Division (MRD) 
that focuses on large for-profit and publicly-traded institutions that 
operate on a national level. The MRD has implemented several new 
oversight strategies including the hiring of Case Managers that each 
oversee a group of corporate institutions. The Case Managers have 
developed innovative oversight strategies to monitor large for-profit 
and publicly-traded institutions, including utilizing a contract 
vehicle to do extensive placement rate validation at select 
institutions. To help conduct more focused reviews that involve complex 
student and Title IV administration issues, the MRD has hired 
additional staff. Additionally, the MRD has begun requiring 13-week 
projected cash flow statements and monthly student enrollment rosters 
for institutions that do not meet the financial responsibility 
standards, or have indicated they may close. The additional reporting 
requirements help with monitoring the financial condition and student 
information at at-risk institutions on a more frequent basis as the 
Department proactively prepares for potential school closures. The 
Department has been actively working with other agencies on schools 
under investigation, is developing targeted oversight strategies based 
on risks to student and tax payers, and taking appropriate actions 
within its authority, when appropriate. As a result of these efforts, 
limitation and recertification denial actions have occurred in recent 
months directly related to these enhanced strategies and the very 
schools overseen by the Multi-Regional Division. Program Compliance 
will also be partnering with the Enforcement Division to develop 
collaborative strategies to ensure both effective oversight and 
enforcement of egregious non-compliance are addressed.
    The Department remains strongly committed to investigating 
violations that harm students and taxpayers and taking swift and 
immediate action as necessary. These new resources will help ensure 
such activities are completed in an effective and efficient manner, 
including supporting more reviews of high-risk institutions, responsive 
to the concerns raised by States' and other Federal agencies' 
investigations of such institutions, as well as by complaints by 
students. The creation of the new Student Aid Enforcement Unit builds 
on steps the Obama Administration has taken over the past 7 years to 
hold schools accountable for a providing a quality education, 
including:
  --Developing a wealth of consumer tools to help provide families with 
        clear information to make a smart college choice;
  --Establishing gainful employment regulations to help ensure that 
        students at career colleges don't end up with debt they cannot 
        repay;
  --Establishing State authorization regulations to ensure State 
        agencies are upholding their important role in the triad and 
        that students have designated offices to voice their 
        complaints, as well as other important program integrity 
        protections, including credit hour, misrepresentation, and 
        incentive compensation regulations;
  --Creating a Federal interagency taskforce to crack down on bad 
        actors through investigations and enforcement actions;
  --Enforcing the ban on incentive compensation to protect students 
        from aggressive recruiting practices;
  --Increasing the rigor of accreditation processes to ensure stronger 
        reviews and a greater focus on outcomes by accreditors; and
  --Proposing to close the 90/10 loophole so institutions do not take 
        advantage of service members.
              consumer financial protection bureau report
    Question. I appreciate your quick response to the recently released 
Department of Education Inspector General Report which found that the 
Department minimized instances where its contracted student loan 
servicers failed to provide veterans with student loan benefits to 
which they were entitled under the law. But I'm troubled that on the 
heels of that report, this week the Consumer Financial Protection 
Bureau found additional violations by Department of Education student 
loan contractors. Specifically, CFPB found that some contracted debt 
collectors used ``false, deceptive, or misleading representations when 
performing collection services of defaulted Federal student loans.'' 
Borrowers were threatened with garnishment even when Department of 
Education guidelines would not have permitted it against those 
borrowers. How is the Department responding to this report by the 
Consumer Financial Protection Bureau? What steps is the Department 
taking to reign in its contractors, both servicers and debt collectors, 
to ensure they are following the law and helping students repay their 
loans?
    Answer. There are many functions involved in Federal Student Aid's 
oversight of loan servicers and private collection agencies (PCAs). 
Among these functions, some are common to loan servicing and private 
collections agencies (and potentially other vendors) and others are 
unique to loan servicing or collections. The functions that are common 
to servicing and collections include contract administration and 
management, system security and change management. Each contract has 
designated and responsible contracting officers from the Acquisitions 
Office and designated Contracting Officer Representatives (COR) 
positioned within the various program and operations offices. The 
Contracting Officers, with assistance from the COR(s), oversee the 
administration and management of the contracts according to Federal 
Acquisition Regulation (FAR), manage the invoice processing and 
payment, and ensure the annual submission of contractor performance 
data. The Contracting Officer Representatives also coordinate the 
review of contract deliverables; formal documents that are identified 
in contracts that are often management reports that provide information 
regarding the contractor's delivery of goods and services. Often, 
deliverables require advanced subject matter expertise for review for 
acceptance or rejection. The COR is typically responsible for the 
distribution of deliverables to the appropriate subject matter experts 
within the program or operational business units. The deliverables are 
delivered and reviewed according to a set schedule. Issues identified 
by staff, who review the deliverables are reported to the contracting 
officer and COR. Contractors are generally provided the opportunity to 
rectify issues with the deliverable. When remediation is not 
successful, the contracting officer may take further action. Invoices 
are submitted to FSA. The contracting officer, the COR and FSA's 
Finance Office all participate in the invoice payment process. The 
contracting officer ensures all requirements for payment are met, the 
COR validates the invoice amounts using data provided by the vendors or 
otherwise available to the COR. Invoices may be rejected if it is found 
that the requested payment amounts are not aligned with supporting 
documentation or system data.
    System security is monitored on an ongoing basis. All vendors are 
required to comply with the Federal Information Security Management Act 
of 2002 (FISMA), GAO's Federal Information System Control Audit Manual 
(FISCAM), all relevant National Institute of Standards and Technology 
(NIST), Office of Management and Budget (OMB), and Department of 
Education security standards, guidance, and directives. Vendors must 
obtain a formal security Authorization to Operate (ATO) from the 
Department. Such authority is only granted once the Department has 
validated that the contractors have met the security requirements.
    Contracts have varying periods of performance. Over time, 
requirements change as a result of new regulation, desired process 
improvements, or for other reasons. FSA maintains a Change Management 
process that manages requirement changes and the validation that the 
changes to impacted systems have been made correctly and that the 
altered process(es) remain compliant.
    There are two oversight functions at FSA that are common to both 
loan servicing and private collections agency contracts administered by 
FSA. Oversight of both of these contract types require call monitoring, 
onsite reviews/process monitoring, and internal controls. Servicers and 
PCAs perform telephone outreach to borrowers who are either in 
delinquent loan repayment status (this is part of a servicer function 
also known as due diligence) or in default status (PCAs). The manner in 
which the outreach is conducted is regulated, and is specified in the 
form of contract requirements. The vendors submit recorded phone calls 
to FSA staff, who then select samples of calls to monitor. The recorded 
phone calls selected for monitoring are then evaluated for compliance 
with regulation (FTCP, UDAP, SCRA, etc.) and contract requirements, and 
assessed from a customer service perspective (the tone of the Customer 
Service Representative, for example). The monitored calls are 
evaluated, and errors are recorded and reported back to the 
contractors. FSA is currently enhancing this function to factor the 
results more heavily in contractor performance. For PCAs, the call 
monitoring scoring will be used in the calculation that determines the 
number of collection accounts awarded to PCAs as a means of driving 
improved performance.
    FSA also performs on-site reviews at loan servicer and PCA 
locations. On site reviews are conducted for the purposes of:
  --Validating that PCA vendors meet requirements to operate prior to 
        receiving accounts (the Contractor Initial Evaluation).
  --Conducting system security assessments.
  --Addressing issues revealed through annual risk assessments 
        conducted by FSA's Financial Institution Oversight Service 
        (FIOS) unit within Program Compliance.
  --Validating that servicers are managing specific, predefined 
        activity such as loan discharges, SCRA requirements, loan 
        status reporting, or due diligence according to requirements 
        and regulation.
  --Following up on potential issues revealed through the monitoring of 
        PCA or servicer activities, deliverables and reports, or 
        customer complaints.
  --Validating proper loan servicing of accounts identified for a 
        comprehensive loan level detailed account review.
  --Monitor Debt Management Collections System processing.
  --Investigating potentially critical issues on an ad-hoc basis.
    There are other oversight functions that are unique to either loan 
servicer or PCA oversight. For loan servicing, FSA maintains a team of 
Servicing Liaisons who are tasked with monitoring servicer day-to-day 
activity, processing inventories and backlogs, and call center 
performance. The Liaisons analyze reports, deliverables and other work 
products to assess servicer performance, and meet regularly to discuss 
performance with other FSA staff including the Acquisitions Office, and 
the vendors themselves. In addition, FSA conducts the Servicing 
Monitoring Group meeting on a monthly basis to discuss issues or 
potential issues related to contract monitoring plan activities. The 
Servicer Monitoring Group meeting is attended by all FSA business units 
involved with contractor oversight as described in the Contract 
Monitoring Plan. Controls within loan servicer processes and systems 
are critical components of Federal Student Aid's internal control 
framework. As such, we anticipate that, at a minimum, some facet of 
servicer process controls and systems, as well as certain oversight 
functions described in this Contract Monitoring Plan (CMP), are 
assessed annually. Staff coordinate servicing control assessment 
planning and reporting activities with Business Operations A-123 senior 
assessment and core team members. A summary of the four phases that 
comprise Federal Student Aid's assessment lifecycle is provided below.
  --Plan: Reconvene the governance structure, perform risk assessments, 
        prioritize processes and systems, define scope, and assign 
        resources. Planning activities generally occur in January and 
        February, but may start as early as the end of the preceding 
        year (i.e., September).
  --Document: Identify and document internal controls over financial 
        reporting for processes and systems in scope, assess design of 
        these controls, and develop test plans to assess operating 
        effectiveness. Documentation phase activities generally start 
        in February or March and continue through April or May. 
        Documentation phase activities may be concurrent to and overlap 
        with certain planning and test phase activities.
  --Test: Execute test procedures to determine whether controls have 
        been operating effectively over a period of time. The testing 
        procedures may include testing techniques such as observation, 
        inspection, re-performance, and corroborative inquiry. Test 
        phase activities are generally scheduled from April through 
        July.
  --Report/Remediation: Evaluate and report the impact and significance 
        of identified control deficiencies, develop corrective action 
        plans to remediate those deficiencies (or accept the risk), and 
        develop management's conclusions and assertions on the 
        effectiveness of internal control over financial reporting. 
        Reporting phase activities start in the July/August timeframe 
        and continue through AFR reporting in November. Remediation is 
        on-going.
    For each servicer, a significant amount of time and resources are 
invested to document and test the relevant process and system controls. 
FSA also defines financial internal control activities to be performed 
by loan servicer contractors, conduct compliance reviews of the 
servicers in accordance with OMB Circular A-123, and to liaison with 
external auditors providing the auditors with accounting work papers 
for samples and explanations of loan servicing processes. Within this 
activity, FSA staff:
  --Sponsor financial requirements of loan servicers and liaison 
        between the Finance Office and the servicers to provide the 
        financial requirements documented in the Servicer contracts and 
        change requests.
  --Work with the Finance Office (FO) on the Annual Financial Audit 
        (External) and A-123 Review-Part A (Internal Audit)
  --Staff define and provide the types of transactions and activities 
        to be reviewed and assessed to FO, for the development of the 
        scope of auditing activities
  --A-123 Review-Part C (Improper Payment Monitoring System). Staff 
        comply with the Improper Payments Elimination and recovery Act 
        of 2010 (IPERA) (Public Law 111-204), Improper Payments 
        Information Act of 2002 (IPIA) (Public Law 107-300) and the 
        Office of Management and Budget's (OMB Circular A-123, Appendix 
        C, Requirements) for Effective Measurement and Remediation of 
        Improper Payments, to define requirements to reduce improper/
        erroneous payments made by the Federal Government.
  --Internal Control (IC) staff also create and track Corrective Action 
        Plans resulting from FIOS Servicer program reviews (referred to 
        above). In addition, IC staff review the results of Servicer 
        SSAE-16 reports, determining their acceptability as 
        deliverables, and converting findings into Corrective Action 
        Plans.
    FSA Finance Office staff reconcile activities related to business 
operations origination, disbursement servicing of Federal student aid 
for the Direct Loan Program. Staff perform the following:
  --Review and sign off on contractor prepared reconciliations of 
        Servicer portfolio balances, transfers to other Servicers and 
        Servicer cash interface with Treasury.
  --Prepare reconciliations of contractor interface data.
  --Monitor inter-system and intra-system balancing reports provided by 
        contractors.
    FSA does not have internal financial controls over PCAs because 
they do not receive, process, or post any money for FSA. All borrower 
payments flow through payment channels managed by Treasury (e.g., 
lockbox for checks, ACH for electronic payments, etc.) There are 
internal controls over the PCA invoice process. These are documented 
and tested through A-123A.
    In addition to onsite review activity and call monitoring, FSA 
staff review, approve or reject:
  --Collection litigation packages on all accounts submitted by PCAs
  --Discharge recommendations
  --Refunds
  --TOP and AWG hearing materials
                           cost of textbooks
    Question. I know you and the President share my concern about the 
growing cost of college. One of the most overlooked costs of a higher 
education is the cost of textbooks. GAO found that new textbooks prices 
increased 82 percent between 2002 and 2012. According to the College 
Board the average student budget for textbooks and supplies during the 
2014-2015 academic year was $1,225. A recent survey by the Student 
Public Interest Research Group found 65 percent of students decided not 
to buy a textbook because of the cost and 94 percent of those students 
worried it would hurt their grade. But there's a solution. Open 
textbooks are free, online educational materials that professors can 
use instead of a traditional textbook which may cost students several 
hundred dollars. I have a bill, the Affordable College Textbook Act 
which would provide grants to encourage the creation and expanded use 
of these materials. How is the Department currently investing in these 
materials and encouraging their increased use? How can we work together 
to do more on this important issue for students?
    Answer. The cost of escalating textbook prices is a real concern 
for students attending our Nation's colleges and universities. The 
Textbook Information provisions authorized under Section 133 of the HEA 
are designed ``to ensure that students have access to affordable course 
materials by decreasing costs to students and enhancing transparency 
and disclosure with respect to the selection, purchase, sale, and use 
of course materials.''
    Although fewer openly licensed textbooks are used than traditional 
publisher textbooks, they are becoming increasingly popular. Openly 
licensed textbooks provide 24/7 access to learning resources, thereby 
expanding learning time and improving equity of access to high quality 
resources for all students. These initiatives align with a number of 
the President's proposals to help make college more accessible, 
affordable, and attainable for all American families, including 
supporting and encouraging higher college completion rates. While the 
scope of these proposals is broader than open textbooks, new and 
continued forms of financial assistance can help to ease the impact of 
textbook costs and related supplies. Originally proposed by President 
Obama in 2009 to help students and families pay for post-secondary 
education, the American Opportunity Tax Credit, worth up to $10,000 
over 4 years, helps working families pay for the cost of tuition, fees, 
and textbooks.
    In addition, the 2017 budget request includes proposals to expand 
access and make postsecondary education more affordable such as--
  --Several new Pell Grant initiatives to expand access to 
        postsecondary education and promote student completion 
        including, full funding for the Pell Grant maximum award, Pell 
        for Accelerated Completion, and On-Track Pell bonus for 
        students taking at least 15 credit hours per semester in an 
        academic year.
  --$1.26 billion in 2017 for America's College Promise which would 
        make 2 years of community college free for responsible 
        students, letting the students earn the first half of a 
        bachelor's degree or an associate degree and earn skills needed 
        in the workforce at no cost. By covering students' tuition, 
        America's College Promise affords students the opportunity to 
        apply their Federal aid to cover expenses such as books, 
        supplies, and room and board, which make up a high proportion 
        of college costs.
    [Note: Highlights and additional information about the President's 
fiscal year 2017 budget proposals can be found on the Department's 
website: http://www2.ed.gov/about/overview/budget/budget17/budget-
factsheet.pdf. Making college more accessible and affordable is 
essential to student success and completion.]
    We look forward to working with you to identify ways to promote 
access, affordability, and attainment in higher education for working 
families, including decreasing the cost of college textbooks and 
supplemental materials while supporting the academic freedom of faculty 
members to select high quality course materials for students.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
   guidance and technical assistance to states for library provisions
    Question. In addition to the Innovative Approaches to Literacy 
grant program, the Every Student Succeeds Act also contains other 
school library provisions to expand opportunities for students and 
improve instructional programs, particularly as part of Titles I and 
II, the comprehensive literacy program, and the education technology 
provisions. What are the Department's plans for guidance and technical 
assistance to encourage and support States and school districts in 
implementing the school library provisions of the new law and ensuring 
that all students have access to effective school library programs?
    Answer. The new law provides time and authority for the Department 
to work with State and local partners to ensure a smooth and orderly 
transition from NCLB to the ESSA. There will be regular communication 
from the Department and we will be providing guidance and technical 
assistance to support all grantees during this period.
    In addition, we note that the Comprehensive Literacy Development 
program in Title II, which is very similar in structure to the current 
Striving Readers Comprehensive Literacy program, awards grants to 
States that agree to use their grant funds to support literacy 
interventions at the local level that meet the needs of students in the 
community and are evidence-based. Increasing access to effective school 
library programs could be a local strategy supported by a Comprehensive 
Literacy Development grant, assuming such strategy meets local needs 
and is sufficiently evidence-based. Of the $190 million requested for 
the Comprehensive Literacy Development program in fiscal year 2017, the 
Department could use up to 5 percent or $9.5 million on technical 
assistance and evaluation activities, which could include specialized 
support to projects that include school libraries as part of their 
literacy development strategy. If Congress funds this program in fiscal 
year 2017, the Department looks forward to working closely with 
literacy projects funded by this initiative to provide technical 
assistance, guidance, and other support.
affects of workforce innovation and opportunity act implementation for 
                            adult education
    Question. The Administration's budget justification documents noted 
a ``persistent need for adult education in the U.S.'' Additionally, 
States and adult education providers are transitioning to the new adult 
education provisions under the Workforce Innovation and Opportunity Act 
(WIOA). The Administration has requested the full authorization level 
for the adult, youth, and dislocated worker programs under WIOA. 
However, the request is only for level funding for the Adult Education 
State Grant Program. Why did the Administration choose not to request 
the authorized amount? How will the lack of resources affect WIOA 
implementation for adult education?
    Answer. To address the persistent need for adult education, the 
Administration is working to ensure a smooth transition and effective 
implementation of the reauthorized program under WIOA. To that end, the 
Administration is requesting $11 million in additional funding under 
Adult Education National Leadership Activities to support WIOA 
implementation. This funding will help States meet the data collection 
requirements of WIOA and align their adult education standards to their 
K-12 standards. Additionally, these funds would improve the efficiency 
and interoperability of data systems. The Administration believes 
investments in WIOA implementation will yield a high return in 
improving the state of adult education and that its request for Adult 
Education State Grants is sufficient to meet the objectives of WIOA.
               teacher quality partnership grant program
    Question. Please explain how the Teacher and Principal Pathways 
proposal does not duplicate the Title II provisions of the Every 
Student Succeeds Act. Also, please explain the rationale for cutting 
continuation grants for current TQP recipients.
    Answer. The Administration's overall request for fiscal year 2017 
includes a set of initiatives that would help State educational 
agencies (SEAs), local educational agencies (LEAs), institutions of 
higher education (IHEs), and other partners address each phase of a 
teacher and school leader's career, including innovative strategies for 
better preparing, recognizing, and supporting teachers and leaders.
    The Teacher and Principal Pathways (TPP) proposal continues the 
emphasis of the Teacher Quality Partnership (TQP) program on expanding 
high quality teacher preparation programs, but would broaden 
eligibility, eliminate some of the burdensome limitations of current 
law (for example, requiring that a student receive a Master's Degree in 
18 months), and ensure a strong priority for programs with proven track 
records of preparing effective and diverse teachers who get and keep 
jobs in classrooms where they are needed most. The proposed TPP program 
would fund competitive awards to IHEs and nonprofit organizations in 
partnership with high-need LEAs. Teacher Pathways grants would build on 
and replace current efforts to improve teacher preparation through TQP; 
while Principal Pathways grants would build on and complement current 
Department efforts under the reauthorized School Leader Recruitment and 
Support program, the successor to the School Leadership program. In 
addition, the request for Supporting Effective Educator Development, 
which would support innovation in the areas of alternative 
certification and professional development, would complement work 
supported under TPP.
    In addition, TPP would help SEAs and LEAs meet the goals of the 
ESEA Title II Part A Supporting Effective Instruction (SEI) State grant 
program, which include helping ensure that teachers and principals are 
prepared to work in high-need schools, increasing numbers of teachers 
and principals are effective in improving student academic achievement, 
and low-income and minority students have greater access to effective 
teachers and principals.
    The 2017 Budget requests funding for TPP as a standalone program 
for a number of reasons. First, States have a limited set-aside under 
the SEI State grant program to support a wide range of activities. 
Particularly in small States, they may not have sufficient resources 
under Title II to establish or expand teacher and school leader 
preparation academies, and the TPP would be able to help fill this gap 
in such States. Second, by requiring grantees to partner with high-need 
LEAs, the TPP grants will be well-targeted to high-need districts and 
increase the likelihood that programs successfully prepare and place 
effective teachers and principals in schools where they are needed 
most. Finally, TPP would prioritize projects that have a strong 
evidence base, either by expanding successful programs or by supporting 
programs adopting effective practices.
    The Department would not cut continuation grants for current TQP 
recipients. The $125 million request for the proposed Teacher and 
Principal Pathways programs would cover the approximately $29 million 
in continuation costs for TQP grantees, as reflected in the output 
tables contained in the fiscal year 2017 Congressional Justification 
for TPP.
 student loan complaint system at consumer financial protection bureau
    Question. In April 2015, just after the Administration unveiled the 
Student Aid Bill of Rights, Senators Warren, Durbin, Brown, and I sent 
a letter to the Office of Management and Budget, with copies to the 
Department of Education and the Consumer Financial Protection Bureau 
(CFPB), asking the administration to examine the feasibility of using 
the existing student loan complaint system at the CFPB for Federal 
student loans. We wrote: ``We urge the Administration to leverage the 
efficient and transparent system that is already in place at the CFPB 
rather than expend resources to create a parallel system at the U.S. 
Department of Education. Creating a parallel system at the Education 
Department may be confusing to student borrowers. Borrowers often have 
both Federal and private student loans and could benefit from a one-
stop complaint system to address their problems.'' We asked for a 
formal response and have yet to receive one. It appears that the 
Department of Education has proceeded to develop its own parallel 
system. What considerations were given to leveraging the CFPB's system?
    Answer. The Enterprise Complaint System is being developed in 
response to the directive in the President's Student Aid Bill of 
Rights, published on March 10, 2015, for the Department to ``Create a 
Responsive Student Feedback System'' to ``give students and borrowers a 
simple and straightforward way to file complaints about Federal student 
loan lenders, servicers, collections agencies, and institutions of 
higher education.'' The Student Aid Bill of Rights notes that, as a 
result of such a system, ``students and borrowers will be able to 
ensure that their complaints will be directed to the right party for 
timely resolution, and the Department of Education will be able to more 
quickly respond to issues and strengthen its effort to protect the 
integrity of the student financial aid programs.'' Although the CFPB 
system and the Department's upcoming Enterprise Complaint System both 
collect complaints, the Department is responsible for using the 
information collected to improve operational efficiency both internally 
and at its own contractor partners. As a result, the Enterprise 
Complaint System incorporates processes for complaint resolution, 
oversight, and data management that differ in purpose and in design 
from the CFPB system.
      department of education's investment in proposed cfpb system
    Question. How much has the Department invested in staff time, 
contracts, and other resources in developing its proposed system?
    Answer. The Department expects total development costs to be 
approximately $7.4 million across fiscal years 2015 and 2016. Staff 
members across various business units have participated in the design 
of the new system.
   estimated costs for development and implementation of cfpb system
    Question. What does the Department estimate the costs going forward 
to be?
    Answer. The Department has estimated annualized ongoing costs, 
including operations and maintenance, software licenses, and contractor 
customer service support, to be approximately $2.5 million per year.
                        fully operational system
    Question. When will the system be fully operational?
    Answer. In accordance with the President's Student Aid Bill of 
Rights, the Enterprise Complaint System will be implemented by July 
1st, 2016.
  interface of department's proposed system and cfpb complaint system
    Question. How will the Department's system interact with the CFPB 
complaint system?
    Answer. Interactions between the Enterprise Complaint System and 
the CFPB complaint system are governed by the Memorandum of 
Understanding (MOU) between the CFPB and the Department regarding 
Federal Student Aid (FSA) Ombudsman data. Cases that are determined to 
be related to the scope of the CFPB complaint system and not the 
Department, e.g., cases related to private student loans, will be 
forwarded to the CFPB for resolution through a process that is seamless 
to the customer. The complainant will be informed when this occurs.
           one-stop interface to file student loan complaints
    Question. Will borrowers have a one-stop interface to file student 
loan complaints regardless of the origin of the loan?
    Answer. Students and borrowers will have a one-stop shop to file 
Federal student aid complaints about Federal student loan lenders, 
servicers, collections agencies, institutions of higher education, 
guarantors, and Federal student aid programs. The Enterprise Complaint 
System will contain language recommending that borrowers with 
complaints about private student loans use the CFPB complaint system in 
order to receive a response efficiently. However, as mentioned in the 
response to the previous question, if a borrower should complain about 
private student loans using the Enterprise Complaint System, that 
complaint will be seamlessly forwarded to the CFPB for resolution, and 
the complainant will be informed when this occurs. We expect these 
cases to be the vast minority as only approximately 7.5 percent of 
outstanding student loan debt is associated with private loans.
                         complaints made public
    Question. And will the complaints be searchable and available to 
the public for review?
    Answer. Although the Department recognizes the value that a 
searchable public database can provide to customers, this functionality 
is not planned for initial implementation. However, the Department is 
exploring ways to develop this capability for a future release, and 
does plan to provide reports to the public. For example, the Department 
will release an annual report on complaint data beginning in October 
2016, and is exploring the possibility of releasing standardized 
complaint data at more frequent intervals on the FSA Data Center, as 
well as periodic ad hoc reports on significant or timely issues.
                       default management system
    Question. Currently, when an institution's cohort default rate 
exceeds 30 percent, the institution must create a task force and 
develop a default management plan. Are there examples of successful 
institutional default management plans that have benefited student loan 
borrowers? What are the features of those plans?
    Answer. An institution that has a 3-year cohort default rate (CDR) 
of 30 percent or greater for any one Federal fiscal year is required to 
establish a default prevention task force, create a program of default 
prevention, and submit a written Default Prevention Plan to the 
Department for review and technical assistance. The purpose of the task 
force and Default Prevention Plan is to reduce defaults and to enhance 
borrowers' understanding of their loan repayment responsibilities.
    An effective and comprehensive Default Prevention Plan must:
  --Identify the factors causing the institution's default rate to 
        exceed the threshold. The institution must conduct an analysis 
        of delinquency and default patterns of the student population 
        to identify factors that appear to increase default risk.
  --Establish measureable objectives and the steps the institution will 
        take to improve its 3-year cohort default rate. The activities 
        included in the Default Prevention Plan must be measureable. 
        This measurement is not only to demonstrate that the 
        institution has a delinquency and default prevention strategy, 
        but also to ensure that the institution has a mechanism to 
        routinely evaluate the success or failure of the default 
        prevention activities identified in the institution's Default 
        Prevention Plan.
  --Specify the actions the institution will take to improve student 
        loan repayment. These actions include, but are not limited to, 
        counseling students on repayment options; providing general 
        financial information; and, if possible, offering classes on 
        financial literacy.
    The number of required default plans over the past cohorts has 
declined. We attribute the decline to more targeted efforts working 
directly with schools by the Departments Default Prevention team. Other 
key factors of successes identified include:
  --Senior Leadership (President or another Cabinet-level person) 
        chairs the schools Default Management Task Force. This approach 
        ensures the right level of awareness and influence in the 
        school policy
  --Assigning a full time default prevention coordinator
  --Schools working directly with Federal servicers
  --Schools working with third-party servicers
  --Schools focusing more effort on specific cohorts
  --Establishing early alerts to help at-risk borrowers like those 
        students most likely to drop out
  --Analysis of the defaulters
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
             institutional risk-sharing in higher education
    Question. Secretary King, a critical driver of the student debt 
crisis is the skyrocketing cost of tuition and attendance at higher 
education institutions across the country. I believe that institutions 
themselves need to have a vested interest in the amount of debt their 
students take on and can successfully repay, and I have introduced 
bipartisan legislation called the Student Protection and Success Act to 
implement such a policy. What is the Department currently doing to 
address institutional responsibility for student debt and to hold 
institutions accountable for their students' ability to repay their 
loans?
    Answer. As part of the Obama Administration's aggressive action to 
protect students and taxpayers, the U.S. Department of Education has 
created a Student Aid Enforcement Unit to respond more quickly and 
efficiently to allegations of illegal actions by higher education 
institutions.
    The new unit will collaborate with, and incorporate evidence 
gathered in investigations by, partner State and Federal agencies, in 
developing cases against institutions of higher education, as 
appropriate. The unit will also collaborate with the Program Compliance 
Unit regarding evidence which may impact ongoing program compliance 
reviews. Moreover, the new Enforcement Unit will utilize a broad set of 
interventions and tools, including subpoena authority, document 
demands, and interrogatories and interviews to enforce against 
violations of Federal law. In the 2017 Budget, the President requests 
$10.5 million in additional funds to strengthen FSA's enforcement and 
oversight activities, as part of its Student Aid Administration 
requested budget increase. The Department remains strongly committed to 
investigating violations that harm students and taxpayers and taking 
swift and immediate action as necessary. This new unit would help to 
ensure such activities are completed in an effective and efficient 
manner, including supporting more reviews of high-risk institutions, 
responsive to the concerns raised by States' and other Federal 
agencies' investigations of such institutions, as well as by complaints 
by students.
    The Department has also put in place a number of program integrity 
regulations to better protect students from poor performing 
institutions. The Government Accountability Office and the Department's 
own Inspector General recommended many of these steps, and the 
Department views them as critical safeguards that provide adequate 
flexibility where necessary.
    Under the Higher Education Act (HEA), all programs at for-profit 
institutions and certificate and non-degree programs at public and non-
profit institutions must prepare students for ``gainful employment in a 
recognized occupation'' in order to be eligible for Title IV student 
aid funds. Additionally, the Department has enacted and is enforcing 
State authorization regulations to ensure State agencies are upholding 
their important role in the triad and that students have designated 
offices to voice their complaints. Other regulations protect students 
from misrepresentation by institutions; limit incentive compensation 
that results in aggressive recruiting practices; ensure that only 
eligible students receive Federal aid; and clarify both the courses 
that are eligible for Federal aid and the amount of aid that is 
appropriate for that coursework. We are also working to increase the 
rigor of accreditation processes to ensure stronger reviews and a 
greater focus on outcomes by accreditors.
    We remain committed to working with Congress and to providing 
technical assistance to help ensure legislative proposals meet the 
consumer and taxpayer protection purposes of these provisions.
  allocation of student loan volumn to for-profit and not-for-profit 
                         student loan servicers
    Question. As you may know, I have long been concerned by the 
Department's approach in allocating student loan volume under the 
Direct Loan program among the for-profit and not-for-profit student 
loan servicers in the program. Not-for-profit servicers typically score 
significantly higher on the Department's performance metrics, but the 
Department has arbitrarily, and harmfully, continued to allocate the 
vast majority of student loan volume to the for-profit Title IV 
Additional Servicers, known as TIVAs.
    Congress included language in the Consolidated Appropriations Act 
for fiscal year 2016 that requires the Department to allocate loan 
volume based on the performance of the loan servicer, and I was pleased 
to see this reflected in the Department's most recent allocation, with 
a much higher share going to not-for-profit servicers who have 
performed well. However, I am very concerned by recent reports that the 
Department is now planning to make changes to its performance metrics 
with the goal of allocating more loan volume to the TIVAs.
    Does the Department recognize that such a change would violate 
Congressional intent for the program?
    Answer. The provision in the Consolidated Appropriations Act 
related to the allocation of borrower accounts requires the Department 
to ``allocate new student loan borrower accounts to eligible student 
loan servicers on the basis of their performance compared to all loan 
servicers utilizing established common metrics, and on the basis of the 
capacity of each servicer to process new and existing accounts.'' On 
March 1, 2016, in accordance with this provision, new allocations were 
set based on a comparison of performance across all Department 
servicers. At the same time, and again consistent with the provision, 
the Department announced that we would require additional time to 
complete and document the required assessment of servicer capacity, as 
well as to ensure that the allocations determined on March 1 were 
equitable given differences in the portfolios of the Title IV 
Additional Servicers (which include contracts with two not-for-profit 
and two for-profit entities) and the Not-for-Profit servicers. We will 
announce the results of these efforts no later than June 30, 2016.
        quality of customer among student loan service providers
    Question. Does the Department support ensuring all student loan 
borrowers receive quality service? Does it believe that allocating loan 
volume under the Direct Loan Program to the highest performing loan 
servicers would make progress towards that goal?
    Answer. The Department is committed to providing the best possible 
service to student and parent borrowers. Under the Department's 
existing performance-based servicing contracts, new borrower accounts 
have always been allocated based on servicers' success in helping 
borrowers avoid delinquency and default, as well as on their scores on 
customer satisfaction surveys. As we continue our efforts to fully 
implement the allocation provision of the Consolidated Appropriations 
Act, quality service for borrowers will continue to be our principal 
goal.
             contracts with student loan service providers
    Question. I am also concerned that the most recent allocation by 
the Department was for just 4 months, despite the fact that servicers' 
contracts up until now have explicitly stated that the allocations will 
be announced twice a year for six-month periods. What was the reason 
for the unusually short time period of the most recent allocation, and 
what is the Department's justification for modifying the terms of its 
contract with the servicers?
    Answer. This statutory language related to servicing allocations 
requires the Department to take into consideration the capacity of each 
servicer to manage and process new and existing borrower accounts. We 
have experience working with each of our servicers and are already 
familiar with their systems and capabilities. Regardless, we have 
requested, received, and conducted an initial review of capacity plans 
from all of our servicers to assess the reasonability and risk of each 
servicer's staffing, training, system, and other resource planning. 
Based on our experience and our initial assessment of the capacity 
plans, we are confident that all of our servicers can manage and 
process projected borrower account allocations for the next few months, 
while the volume of new accounts is relatively low. While we continue 
the process of completing and documenting our capacity assessment, we 
will monitor each servicer's performance closely and can modify or 
discontinue allocations on short notice if any issues arise. Our plan 
is to complete and document the capacity review, as well any 
adjustments or changes to the metrics, by June 30, 2016. The current 
allocation period was shortened to allow us to reflect the results of 
these actions prior to the beginning of the new academic year on July 
1, 2016.

                          SUBCOMMITTEE RECESS

    Senator Blunt. The subcommittee will stand in recess until 
10:00 a.m. on Thursday, March 17.
    Dr. King, thank you for your time today.
    [Whereupon, at 11:31 a.m., Thursday, March 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
March 17.]
</pre></body></html>
